<html>
<title> - DO NO HARM: EXAMINING THE MISAPPLICATION OF THE 'RELIGIOUS FREEDOM RESTORATION ACT'</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                             
                     DO NO HARM: EXAMINING THE
                    MISAPPLICATION OF THE 'RELIGIOUS
                        FREEDOM RESTORATION ACT'

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

             HEARING HELD IN WASHINGTON, DC, JUNE 25, 2019

                               ----------                              

                           Serial No. 116-31

                               ----------                              

      Printed for the use of the Committee on Education and Labor
      
      
      
      
      
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
      


           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
              
              
              
              
  DO NO HARM: EXAMINING THE MISAPPLICATION OF THE 'RELIGIOUS FREEDOM 
  
                            RESTORATION ACT'




                                 
 
                       DO NO HARM: EXAMINING THE
                    MISAPPLICATION OF THE 'RELIGIOUS
                        FREEDOM RESTORATION ACT'

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 25, 2019

                               __________

                           Serial No. 116-31

                               __________

      Printed for the use of the Committee on Education and Labor
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
 
 


           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
              
              
                             ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
37-317                 WASHINGTON : 2020 
              
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------            
                                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 25, 2019....................................     1

Statement of Members:
    Scott, Hon. Robert C. ``Bobby'', Chairman, Committee on 
      Education and Labor........................................     1
        Prepared statement of....................................     4
    Foxx, Hon. Virginia, Ranking Member, Committee on Education 
      and Labor..................................................     6
        Prepared statement of....................................     7

Statement of Witnesses:
    Hawkins, Mr. Jimmie R., Director, Presbyterian Office of 
      Public Witness, Presbyterian Mission USA...................    66
        Prepared statement of....................................    68
    Kennedy, III, Hon. Joseph P., a Representative in Congress 
      from the State of Massachusetts............................    11
    Laser, Ms. Rachael, J.D., President and CEO, Americans United 
      for Separation of Church and State.........................    17
        Prepared statement of....................................    19
    Sharp, Mr. Matt, Senior Counsel, Alliance Defending Freedom..    47
        Prepared statement of....................................    49
    Wilcher, Ms. Shirley J., MA, J.D., CAAP, Executive Director, 
      American Association for Access, Equity and Diversity 
      (AAAED)....................................................    33
        Prepared statement of....................................    35

Additional Submissions:
    Adams, Hon. Alma, a Representative in Congress from the State 
      of North Carolina:
        Article: Catholic Hospitals Denied These Women Critical 
          Care, Now They're Speaking Out.........................   122
    Bonamici, Hon. Suzanne, a Representative in Congress from the 
      State of Oregon:
        Prepared statement from the National Center for 
          Transgender Equality...................................   124
    Mrs. Foxx:
        Letter dated June 24, 2019 from the Committee for 
          Religious Liberty......................................   134
        Article: Hobby Lobby.....................................   136
    Ms. Laser:
        Case: In the United States District Court for the 
          District of South Carolina Greenville Division.........   137
    Chairman Scott:
        Letter dated June 20, 2019 from the Freedom From Religion 
          Foundation.............................................   171
        Letter dated June 25, 2019 from ADL......................   203
        Letter dated June 25, 2019 from American Atheists........   210
        Letter dated June 25, 2019 from Interfaith Alliance......   214
        Faith for Equality: Faith Groups Who Have Endorsed the 
          Equality Act...........................................   217
        Article: Why Republicans Are Growing More Willing To 
          Embrace Discrimination.................................   218
        Case: David A. Zubik, et al., Petitioners, v. Sylvia 
          Burwell, Secretary of Health and Human Services, et al.   220
        Report: The Gospel Of Citizens United....................   257
        Center for American Progress: Religious Liberty for a 
          Select Few.............................................   263
        Center for American Progress: Religious Liberty Should Do 
          No Harm................................................   291
    Takano, Hon. Mark, a Representative in Congress from the 
      State of California:
        Prepared statement from Stacy, Mr. David, Government 
          Affairs Director, Human Rights Campaign................   317
    Wild, Hon. Susan, a Representative in Congress from the State 
      of Pennsylvania:
        Prepared statement from National Council of Jewish Women 
          (NCJD).................................................   320
    Questions submitted for the record by:
        McBath, Hon. Lucy, a Representative in Congress from the 
          State of Georgia.......................................   322
        Chairman Scott 




    Responses to questions submitted for the record:
        Mr. Hawkins..............................................   329
        Ms. Laser................................................   331
        Mr. Sharp................................................   338
        Ms. Wilcher..............................................   342


                       DO NO HARM: EXAMINING THE

                    MISAPPLICATION OF THE 'RELIGIOUS

                        FREEDOM RESTORATION ACT'

                              ----------                              


                        Tuesday, June 25, 2019,

                       House of Representatives,

                   Committee on Education and Labor,

                            Washington, DC.

                              ----------                              

    The subcommittee met, pursuant to notice, at 10:16 a.m., in 
room 2175, Rayburn House Office Building. Hon. Robert C. 
``Bobby'' Scott (Chairman of the Committee) presiding.
    Present: Representatives Scott, Davis, Courtney, Sablan, 
Bonamici, Takano, Adams, DeSaulnier, Norcross, Jayapal, 
Morelle, Wild, McBath, Schrier, Underwood, Hayes, Shalala, 
Levin, Omar, Trone, Stevens, Lee, Castro, Foxx, Roe, Thompson, 
Walberg, Guthrie, Byrne, Grothman, Stefanik, Allen, Smucker, 
Banks, Walker, Comer, Cline, Fulcher, Taylor, Watkins, Wright, 
Timmons, and Johnson.
    Also present: Representatives Raskin, and Cohen.
    Staff present: Tylease Alli, Chief Clerk; Ilana Brunner, 
General Counsel; Emma Eatman, Press Aide; Daniel Foster, Health 
and Labor Counsel; Christian Haines, General Counsel; Carrie 
Hughes, Director of Health and Human Services; Ariel Jona, 
Staff Assistant; Stephanie Lalle, Deputy Communications 
Director; Andre Lindsay, Staff Assistant; Jaria Martin, Clerk/
Assistant to the Staff Director; Richard Miller, Director of 
Labor Policy; Max Moore, Office Aid; Veronique Pluviose, Staff 
Director; Carolyn Ronis, Civil Rights Counsel; Banyon Vassar, 
Deputy Director of Information Technology; Cyrus Artz, Minority 
Parliamentarian; Courtney Butcher, Minority Director of 
Coalitions and Member Services; Akash Chougule, Minority 
Professional Staff Member; Cate Dillon, Minority Staff 
Assistant; Rob Green, Minority Director of Workforce Policy; 
Bridget Handy, Minority Legislative Assistant; John Martin, 
Minority Workforce Policy Counsel; Sarah Martin, Minority 
Professional Staff Member; Hannah Matesic, Minority Director of 
Operations; Alexis Murray, Minority Professional Staff Member; 
Brandon Renz, Minority Staff Director; and Ben Ridder, Minority 
Legislative Assistant.
    Chairman SCOTT. Committee on Education and Labor will come 
to order. Everyone is welcome. I note a quorum is present and 
note for the committee that Congressman Jamie Raskin of 
Maryland, Congresswoman Sylvia Garcia of Texas, and Congressman 
Steve Cohen of Tennessee, who chairs the Subcommittee on 
Constitution and the Judiciary Committee, will be participating 
in today's hearing with the understanding that their questions 
will come only after all the Members of the Committee on both 
sides of the aisle who are present have had the opportunity to 
question the witnesses.
    The Committee is meeting today in a legislative hearing to 
hear testimony on Do No Harm: The Misapplication of the 
Religious Freedom Restoration Act, or RFRA, pursuant to 
Committee Rule 7. Opening statements are limited to the Chair 
and Ranking Member. This allows us to hear from our witnesses 
sooner and provides all members with adequate time to ask 
questions.
    I recognize myself now for the purpose of an opening 
statement.
    Seventy-Eight years ago today, President Franklin D. 
Roosevelt signed Executive Order 8802, the first action to 
promote equal opportunity and prohibit employment 
discrimination in Federal contracting in the United States. The 
order barred private defense related contractors from 
discrimination, and it required certain defense related 
programs to be administered without discrimination as to race, 
creed, color, or national origin. Subsequent orders and 
amendments have been signed and have confirmed the principle 
that discrimination is prohibited when using Federal money.
    Against this backdrop we examine the challenge of 
protecting our civil rights while maintaining our fundamental 
commitment to religious liberty.
    Religious liberty is a fundamental American value. Our 
Founding Fathers knew from personal experience the dangers of 
governmental entanglement with religion. In 1779 Thomas 
Jefferson, in my home State of Virginia, introduced and helped 
pass the Nation's precursor to the First Amendment, which 
states ``Our civil rights have no dependence on our religious 
opinions any more than our opinions on physics and geometry.''
    The Virginia statute on religious freedom became the 
foundation for our First Amendment to our Nation's 
Constitution, which stipulates that ``Congress shall make no 
law respecting an establishment of religion or prohibiting the 
free exercise thereof.''
    The First Amendment makes clear that all Americans have the 
right to practice the religion of their choice, or none at all, 
and reflects our Country's commitment to separating religion 
from government or church and State.
    Religion has played a vital role in our Nation's history. 
It has furthered social justice causes such as the abolition 
movement, civil rights movement, and the movement to end child 
labor. Although some have used religion as a pawn to justify 
slavery, Jim Crow, and the slaughter of our native populations 
and other horrific acts.
    In fact, when I was growing up segregation was preached 
from the pulpit. Before the Supreme Court struck down the ban 
on interracial marriage in Loving v. Virginia, the judge and 
the Circuit court in Virginia, the State court, in a 1965 lower 
court decision, relied on his own religious beliefs to 
conclude, and I quote from his opinion, ``Almighty God created 
the races, white, black, yellow, malay, and red, and he placed 
them on separate continents. And but for the interference with 
this arrangement, there would be no cause for such a marriage. 
In fact, the fact that he separated the races showed that he 
did not intend for the races to mix.''
    That was the basis for the original decision in Loving v. 
Virginia that was overturned by the Supreme Court. While some 
religions have been protected in the courts, others have 
experienced less or sometimes no protection at all. In 1990 the 
Supreme Court's decision in Employment Division v. Smith upheld 
the firing of two Native American employees for participating 
in ceremonial peyote smoking during personal time.
    In response, Congress passed the Religious Freedom 
Restoration Act in 1993, on a bipartisan basis to expand 
protections for religious exercise. Under RFRA Congress 
addressed the court's 1990 decision by clarifying a government 
action may only infringe on a person's exercise of religion if 
there is a compelling governmental interest, and if it is the 
least restrictive means to achieve that interest.
    The passage of RFRA was meant to reinstate a broader 
protection of free exercise rights, it was not meant to erode 
civil rights under the guise of religious freedom. Importantly, 
it did not change the First Amendment's establishment clause 
which ensures that government cannot elevate certain religious 
or moral beliefs above the law.
    No sooner than RFRA was enacted the flood gates began to 
open and RFRA has since been used to legitimize housing 
discrimination against single mothers and minorities, shield 
church groups from paying child abuse victims, and impose 
extreme emotional harm on school children based on their gender 
identity.
    Since the beginning of the Trump Administration this 
troublesome trend has only gotten worse. On May 4th, 2017, the 
Trump Administration issued an Executive Order undermining 
RFRA's original intent and allowing individuals to use 
conscious based objections to override civil rights 
protections.
    That Executive Order directed Attorney General Sessions to 
issue guidance interpreting religious liberty protections in 
Federal law. Instead, the Attorney General issued guidance 
following his own personal religious beliefs, and without 
regard to other beliefs. The guidance has provided legal cover 
for the administration to permit, or even promote, government 
sanctioned attacks on civil rights in employment, healthcare, 
foster care, and other areas under the guise of religious 
liberty.
    These attacks are spreading. For example, the Department of 
Education has proposed altering which institutions of higher 
education count as ``religious'' in the accrediting process in 
order to allow colleges with any religious affiliation to 
freely discriminate.
    The Department of Health and Human Services misapplied RFRA 
to propose rolling back the Affordable Care Act's protections 
for patients against discrimination on the basis of race, 
color, national origin, sex, age, or disability.
    The Administration has also eroded women's reproductive 
rights by moving to allow employers to skirt the ACA and deny 
coverage for contraception on the basis of religion.
    The Trump Administration is misapplying RFRA when it allows 
Federal funds to be used to discriminate against families when 
placing foster children, and recently permitted a federally 
funded organization in South Carolina to restrict placement of 
foster children only to evangelical Christian families. This 
discrimination is being used to deny taxpayer-funded placements 
of vulnerable refugee children in addition to the other 
discrimination.
    Finally, the Office of Federal Contract Compliance 
Programs, OFCCP, is allowing Federal contractors to violate 
civil rights laws based upon the RFRA exemption, only without 
the ability to question the sincerity or legitimacy of the 
claim.
    These examples are just a few ways the Administration has 
twisted RFRA to threaten basic civil rights imbedded in the 
Civil Rights Acts of 1964 and other protective actions.
    In other words, the path of religious exemptions we are on 
today not only strays from President Roosevelt's original 
Executive Order signed 78 years ago, but it also threatens our 
civil rights and our democracy.
    Unfortunately, history tells us that our country will only 
continue this dangerous trajectory unless we act.
    That responsibility falls on Congress. We must pass 
legislation that restores RFRA's original attempt. H.R. 1450, 
the Do No Harm Act, would help to ensure that our right to 
religious liberty does not threaten fundamental civil and legal 
rights.
    Specifically, the bill would prevent RFRA from being used 
to deny equal opportunity and protection against discrimination 
laws, workplace protections, and protection against child 
abuse, healthcare access coverage and services, and contracted 
services.
    I hope that we can all agree that while religious liberty 
remains a fundamental value, it cannot and should not be used 
as a weapon to cause harm to others, but rather as a shield to 
protect civil rights of people of all faiths, not just a 
favored few.
    I now recognize the distinguished Ranking Member for the 
purpose of making an opening statement.
    [The statement by Chairman Scott follows:]

    Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Chairman, 
                    Committee on Education and Labor

    Seventy-eight years ago, today, President Franklin D. Roosevelt 
signed Executive Order 8802, the first action to promote equal 
opportunity and prohibit employment discrimination in Federal 
contracting in the United States. The Order barred private, defense-
related contractors from discrimination and required certain defense-
related programs to be administered without discrimination as to, 
`race, creed, color, or national origin.' Subsequent orders and 
amendments have been signed to confirm the principal that 
discrimination is prohibited when using Federal money.
    It is against this backdrop that we examine the challenge of 
protecting our civil rights while maintaining our fundamental 
commitment to religious liberty.
    Religious liberty is a fundamental American value. Our Founding 
Fathers knew from personal experience the dangers of governmental 
entanglement with religion. In 1779, Thomas Jefferson, in my home State 
of Virginia, introduced and helped pass the Nation's precursor to the 
First Amendment, which States, `Our civil rights have no dependence on 
our religious opinions, any more than our opinions on physics and 
geometry.'
    The Virginia statute on religious freedom became the foundation for 
the First Amendment in our Nation's constitution, which stipulates 
that: ``Congress shall make no law respecting an establishment of 
religion, or prohibiting the free exercise thereof''
    The First Amendment makes clear that all Americans have the right 
to practice the religion of their choice, or none at all, and reflects 
our country's commitment to separating religion from government, or 
`church and State.'
    Religion has played a vital role in our Nation's history. It has 
furthered social justice causes, such as the abolitionist movement, 
civil rights movement, and movement to end child labor.
    However, some have used religion as a pawn to justify slavery, Jim 
Crow, the slaughter of our native populations, and other horrific acts.
    In fact, when I was growing up, segregation was preached from the 
pulpit. Before the Supreme Court struck down the ban on interracial 
marriage in Loving v. Virginia, the judge, in the circuit court in 
Virginia, in a 1965 lower court decision, relied on his own religious 
belief to conclude: `Almighty God created the races white, black, 
yellow, malay and red, and he placed them on separate continents. And, 
but for the interference with his arrangement, there would be no cause 
for such marriage. The fact that he separated the races shows that he 
did not intend for the races to mix.'
    That was the basis for the original decision in Loving v. Virginia 
that was overturned by the Supreme Court. And while some religions have 
been protected in the courts, others have experienced less, or no 
protection at all. In 1990, the Supreme Court's decision in Employment 
Division v. Smith upheld the firing of two Native American employees 
for participating in ceremonial peyote-smoking during personal time.
    In response, Congress passed the Religious Freedom Restoration Act 
(RFRA)in 1993 on a bipartisan basis to expand protections for religious 
exercise. Under RFRA, Congress addressed the Court's 1990 decision by 
clarifying that government action may only infringe on a person's 
exercise of religion if there is compelling government interest and if 
it is the least restrictive means to achieve that interest.
    The passage of RFRA was meant to reinstate a broader protection of 
free exercise rights. It was not meant to erode civil rights under the 
guise of religious freedom. Importantly, it did not change the First 
Amendment's Establishment Clause, which ensures that the government 
cannot elevate certain religious or moral beliefs above the law.
    No sooner than RFRA was enacted, the floodgates began to open and 
RFRA has since been used to:
    Legitimize housing discrimination against single mothers and 
minorities,
    Shield church groups from paying child abuse victims, and
    Impose extreme emotional harm on schoolchildren based on their 
gender identity.
    Since the beginning of the Trump administration, this troublesome 
trend has only gotten worse. On May 4th, 2017, the Trump administration 
issued an Executive Order, undermining RFRA's original intent and 
allowing individuals to use 'conscience-based objections' to override 
civil rights protections.
    That Executive Order directed Attorney General Sessions to issue 
guidance interpreting religious liberty protections in Federal law. 
Instead, the Attorney General issued guidance following his own 
personal religious beliefs and without regard to other beliefs. The 
guidance has provided legal cover for the administration to permit or 
even promote government-sanctioned attacks on civil rights in 
employment, health care, foster care, and other areas, under the guise 
of religious liberty.
    These attacks are spreading. For example, the Department of 
Education has proposed altering which institutions of higher education 
count as `religious' in the accrediting process to allow colleges with 
any religious affiliation to freely discriminate.
    The Department of Health and Human Services misapplied RFRA to 
propose rolling back the Affordable Care Act's protections for patients 
against discrimination on the basis of race, color, national origin, 
sex, age, or disability. The administration has also eroded women's 
reproductive rights by moving to allow employers to skirt the ACA and 
deny coverage for contraception on the basis of religion.
    The Trump administration is misapplying RFRA when it allows Federal 
funds to be used to discriminate against families when placing foster 
children and recently permitted a federally funded organization in 
South Carolina to restrict placement of foster children only to 
evangelical Christian families. This discrimination is being used to 
deny taxpayer-funded placements of vulnerable refugee children in 
addition to other discrimination.
    Finally, the Office of Federal Contract Compliance Programs (OFCCP) 
is allowing Federal contractors to violate civil rights laws based upon 
a RFRA exemption, without the ability to question the sincerity or 
legitimacy of the claim.
    These examples are just a few of the ways this Administration has 
twisted RFRA to threaten basic civil rights embedded in the Civil 
Rights Act of 1964 and other protective laws.
    In other words, the path of religious exemptions we are on today 
not only strays from President Roosevelt's original Executive Order 
signed 78 years ago but threatens our civil rights and our democracy. 
Unfortunately, history tells us that our country will only continue 
this trajectory unless we act.
    That responsibility falls on Congress. We must pass legislation 
that restores RFRA's original intent. H.R. 1450, the Do No Harm Act, 
would help ensure that our right to religious liberty does not threaten 
fundamental civil and legal rights.
    Specifically, the bill would prevent RFRA from being used to deny:
    Equal opportunity and protection against discriminatory laws;
    Workplace protections and protections against child abuse;
    Health care access, coverage, and services; and,
    Contracted services.
    I hope all of us here can agree that while religious liberty 
remains a fundamental value, it cannot and should not be used as a 
weapon to cause harm to others, but rather as a shield to protect the 
civil rights of people of all faiths, not just a favored few.
    I now recognize the distinguished Ranking Member for the purpose of 
making an opening statement.
                                 ______
                                 
    Mrs. FOXX. Thank you, Mr. Chairman. Thank you for yielding.
    The First Amendment of the United States Constitution 
declares that Congress may make no law ``respecting an 
establishment of religion or prohibiting the free exercise 
thereof.''
    Our Founding Fathers reiterated this principle at every 
stage. That people are fundamentally free and are endowed by 
their creator with certain inalienable rights, among these the 
ability to worship freely. Many of the first settlers of our 
country crossed the ocean in search of this very freedom that 
we are discussing here today.
    Members present in this room come from a diverse range of 
social, economic, and religious backgrounds. Surely this pillar 
of our Nation's founding cannot be lost on us.
    The right of Americans to practice freely their religion 
and conduct their business without unnecessary interference 
from the government is as important in 2019 as it was in 1620, 
in 1776, and 1789.
    Not too long-ago, Congress reaffirmed the significance of 
this basic human right by passing the Religious Freedom 
Restoration Act of 1993. With nearly unanimous bipartisan 
support, RFRA stands as our Nation's primary religious liberty 
statute, enacted to ensure that all Americans can freely 
express their faith without fear of discrimination.
    It recognizes the importance of all religious faiths, 
including religious minorities, and offers a safe haven for 
anyone seeking to practice their religion freely by providing a 
sensible balancing test that allows individuals exercising 
their religious beliefs a fair hearing under the law.
    It is unacceptable that congressional Democrats, starting 
in earnest during the last administration, have consistently 
ignored how clear the First Amendment is in affirming religious 
practice as a fundamental human right. Actions by Democrat 
legislators in the name of political point scoring have eroded 
the rights protected by RFRA and harmed those who wished to 
exercise their Constitutional right to freedom of religion.
    The Affordable Care Act and other policies of the Obama 
Administration have imposed countless coverage mandates for 
contraception and abortion coverage that attempt to force 
individuals to violate their religious beliefs. Small business 
owners and religious groups have spent tens of thousands of 
dollars and countless hours defending their values and 
consciences. And the Supreme Court has ruled time and again 
that these attempts to limit religious expression are unlawful.
    We have long stood as a nation set apart from other nations 
because of the promises and principles of our First Amendment. 
Our individual liberties are the envy of people across the 
world, and our freedom of thought and expression are the 
cornerstone of this democracy. Now more than ever it is vital 
that we safeguard these fundamental rights.
    I stand with all House Republicans and any Democrats 
willing to put aside politics in the best interest of the 
people to defend religious freedom and the rights of religious 
minorities to worship freely.
    We will continue to oppose all policies that undermine the 
United States Constitution and that disrespect and diminish the 
faith of any American.
    House Republicans will also continue our steadfast support 
for the Religious Freedom Restoration Act and will fight any 
attempts to diminish or weaken the law which has served our 
country well for over 25 years.
    Lastly, it is good to see Congressman Kennedy and 
Congressman Johnson join us here today. As we all know, 
Congressman Kennedy's legislation to limit the scope and 
application of RFRA is solely within the jurisdiction of the 
Judiciary Committee. As such, Congressman Kennedy's time, in 
particular, would likely be better spent speaking before our 
colleagues on that committee. Regardless, I thank both of my 
colleagues in advance for their testimony, and I hope we can 
all work together to protect the Constitution of the United 
States.
    Mr. Chairman, I would like to make a small point of 
personal privilege. I have two young men from the 5th District 
in North Carolina shadowing me today, Reed Ballis and Lucas 
Schneider. And they have a particular interest in this hearing 
today and I welcome them to the hearing. With that, Mr. 
Chairman, I yield back.
    [The statement by Mrs. Foxx follows:]

Prepared Statement of Hon. Virginia Foxx, Ranking Member, Committee on 
                          Education and Labor

    The First Amendment of the United States Constitution declares that 
Congress may make no law ``respecting an establishment of religion, or 
prohibiting the free exercise thereof.'' Our founding fathers 
reiterated this principle at every stage: that people are fundamentally 
free, and are endowed by their Creator with certain inalienable rights, 
among these, the ability to worship freely. Many of the first settlers 
of our country crossed the ocean in search of this very freedom that we 
are discussing here today. Members present in this room come from a 
diverse range of social, economic, and religious backgrounds --surely, 
this pillar of our Nation's founding cannot be lost on us. The right of 
Americans to practice their religion freely and conduct their business, 
without unnecessary interference from the government, is as important 
in 2019 as it was in 1620, in 1776, and in 1789.
    Not too long ago, Congress rearmed the significance of this basic 
human right by passing the Religious Freedom Restoration Act of 1993, 
with nearly unanimous bipartisan support. RFRA stands as our Nation's 
primary religious liberty statute, enacted to ensure that all Americans 
can freely express their faith without fear of discrimination. It 
recognizes the importance of all religious faiths, including religious 
minorities, and o?ers a safe haven for anyone seeking to practice their 
religion freely, by providing a sensible balancing test that allows 
individuals exercising their religious beliefs a fair hearing under the 
law.
    It is unacceptable that congressional Democrats, starting in 
earnest during the last administration, have consistently ignored how 
clear the First Amendment is in a?rming religious practice as a 
fundamental human right. Actions by Democrat legislators in the name of 
political point-scoring have eroded the rights protected by RFRA and 
harmed those who wish to exercise their constitutional right to freedom 
of religion.
    The Affordable Care Act and other policies of the Obama 
Administration have imposed countless coverage mandates for 
contraception and abortion coverage that attempt to force individuals 
to violate their religious beliefs. Small business owners and religious 
groups have spent tens of thousands of dollars and countless hours, 
defending their values and consciences. And the Supreme Court has ruled 
time and again that these attempts to limit religious expression are 
unlawful.
    We have long-stood as a nation set apart from other nations because 
of the promises and principles of our First Amendment. Our individual 
liberties are the envy of people across the world, and our freedom of 
thought and expression are the cornerstone of this democracy. Now more 
than ever, it is vital that we safeguard these fundamental rights.
    I stand with all House Republicans, and any Democrats willing to 
put aside politics in the best interest of the people, to defend 
religious freedom and the rights of religious minorities to worship 
freely. We will continue to oppose all policies that undermine the 
United States Constitution and that disrespect and diminish the faith 
of any American
    House Republicans will also continue our steadfast support for the 
Religious Freedom Restoration Act and will fight any attempts to 
diminish or weaken the law, which has served our country well for over 
25 years.
    Last, it's good to see you, Congressman Kennedy and Congressman 
Johnson. As we all know, Congressman Kennedy's legislation to limit the 
scope and application of RFRA is solely within the jurisdiction of the 
Judiciary Committee. As such, Congressman Kennedy's time in particular 
would likely be better spent speaking before our colleagues on that 
Committee. Regardless, I thank both of my colleagues in advance for 
their testimony, and I hope we can all work together to protect the 
Constitution of the United States.
                                 ______
                                 
    Chairman SCOTT. Thank you. Without objection all other 
members who wish to insert written statements into the record 
may do so by submitting them to the committee clerk by Monday, 
July 8th, 2019, in the normal format.
    I will now introduce our witnesses for our first panel. 
Congressman Mike Johnson represents Louisiana's 4th 
Congressional District. He is the Ranking Member of the 
Subcommittee on the Constitution, Civil Rights and Civil 
Liberties of the House Judiciary Committee. He also serves on 
the House Natural Resources Committee and is Chair of the 
Republican Study Committee.
    Joe Kennedy, III, represents the 4th Congressional District 
of Massachusetts, a member of the House Energy and Commerce 
Committee. He has helped lead Congress on core issues of 
economic equity, particularly in healthcare and mental health. 
He also serves as Chair of the Congressional Transgender 
Equality Task Force.
    Let me just say we appreciate both of you for being here 
today. You are fully aware of the procedures and testimony and 
the lighting system. And so we will first recognize 
Representative Johnson.

 STATEMENT OF THE HONORABLE MIKE JOHNSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. JOHNSON. Thank you, Chairman Scott, Ranking Member 
Foxx, and all the Committee members. Appreciate the opportunity 
to be with you this morning.
    Let me begin this morning just by saying I genuinely 
appreciate the intellect and the sincerity and the pure 
intentions of my good friend, Joe Kennedy. We have talked about 
this at some length, as well as my other good friends and 
Democratic colleagues who are co-sponsors and supporters of 
this bill.
    That said, I am here today to urge opposition to this 
legislation because I am convinced it would eviscerate one of 
the most important and widely regarded laws that has ever been 
passed by the Congress, and that is the Religious Freedom 
Restoration Act, or RFRA, as we call it.
    I did want to just make a quick remark. I do find it a bit 
curious that we are here instead of over in our Subcommittee on 
Judiciary. I am looking at my chairman up there, Mr. Cohen. We 
would have a good time with this. But it is here for whatever 
reason, so I found out about it yesterday and I came to be a 
part of it.
    I bring you today first-hand knowledge and experience of 
the benefits and importance of the Religious Freedom 
Restoration Act because prior to my election to Congress I 
served for nearly 20 years as a Constitutional law attorney and 
religious liberty defense litigator.
    For more than 25 years now RFRA has helped secure the 
fundamental right of Americans to live and work according to 
their sincerely held religious beliefs. We can never lose sight 
of the importance of this protection.
    For so many reasons we know, religious liberty is often 
referred to as our First Freedom. The founders listed it first 
in the Bill of Rights because they understood the right to 
believe and to act upon that belief is essential to who we are 
as Americans, but more fundamentally than that, who we are as 
human beings.
    When that premise was placed in some doubt by a decision of 
the Supreme Court in 1990's Employment Division v. Smith, 
Congress responded with a truly bipartisan effort that was led 
by giants on both sides of the aisle. Ironically, Senators Ted 
Kennedy and Orrin Hatch, and then-Representative Chuck Schumer.
    The 1993 Religious Freedom Restoration Act received 
overwhelming support also from more than 60 national religious 
and civil liberties organizations from across the philosophical 
and political spectrum. The bill passed unanimously in our 
House and received only three dissenting votes in the Senate.
    It was celebrated and signed by President Bill Clinton, who 
hailed the ``Broad coalition of Americans who came together to 
make this bill a reality.''
    The reason all those diverse groups came together was 
because the Smith decision had caused great alarm around the 
country. In that case the Supreme Court ruled against two 
Native Americans who were terminated from their jobs because 
they failed a drug test after using peyote in a traditional 
religious ceremony. As you might expect, many of the 
conservative and religious groups, and even many Members of 
Congress who voted for RFRA didn't personally agree with the 
religious practices of the peyote users. In fact, the House 
Judiciary Committee itself specifically disclaimed support for 
any particular practices that RFRA might be used to uphold.
    But the personal views of the lawmakers was not the point. 
Everyone, both liberal and conservative, recognized that even 
the sincerely held religious beliefs of small minority groups 
are important for us to protect. RFRA supporters understood 
that one day it could be their own religious beliefs and 
practices that would be unpopular and face government scorn and 
restriction.
    So RFRA was created to provide a very reasonable balancing 
test, and this is the key. It is a balancing test in our civil 
rights law. It preserves, and seeks to preserve, both religious 
liberty and the rule of law. As Senator Ted Kennedy said, the 
lead Senate sponsor, he explained at that time ``The act 
creates no new rights for any religious practice or any 
potential litigant.''
    RFRA merely protects the right of every American, 
regardless of their political belief system or their religious 
belief system, to have a fair court review any time the 
government takes an action that forces them to violate their 
deeply held religious beliefs.
    Simply put, as it has been stated already, the balancing 
test provides that the government cannot substantially burden 
the exercise of religious belief unless the government can 
prove that the burden serves a compelling government interest 
that is accomplished by the least restricted means.
    It is important to emphasize again that all RFRA provides 
is a fair hearing, it doesn't determine any outcome. In fact, 
as attorney Matthew Sharp has pointed out in his written 
statement for the committee today, in the quarter century since 
RFRA was enacted, people who have sought protection for their 
religious practices under the statute have only been successful 
in 16.3 percent of appellate court opinions, and 17.6 percent 
of district court opinions. In other words, the government 
almost always wins. The Do No Harm Act that you are hearing 
today was originally drafted and filed in the immediate wake of 
the Burwell v. Hobby Lobby decision in 2014. As you know, in 
that case the Supreme Court recognized a very narrow exemption 
and held that the contraceptive mandate provision in the Obama 
Care statute could not be used to force the owners of a 
specific closely held business to violate their sincerely held 
religious convictions.
    Critics of the Hobby Lobby decision insisted that the 
decision would ``open the flood gates,'' to all sorts of new 
claims under RFRA and to ``impose Christian values on America 
and use religious freedom as a new license to discriminate.''
    That simply has not happened. In fact, as the Becket 
Religious Liberty Defense Organization has pointed out, ``A 
recent comprehensive empirical study of religious freedom 
cases, post Hobby Lobby, reveals that religious minorities 
remain significantly over represented in religious freedom 
cases, and Christians remain significantly under represented.''
    Scholars in a 2018 Law Review article documented that 
``Lawsuits filed post Hobby Lobby similarly found that Hobby 
Lobby has not had a dramatic effect on government win rates and 
religious exemption challenges nor have religious claims 
undergone a dramatic expansion in volume following the case. If 
anything, the volume of these cases appears to be slightly 
decreasing as a percentage of overall reported case.''
    It is worthy of note too that Becket highlights the fact 
that several of the 21 States that have adopted and maintained 
State level RFRA statute since the 1990's, like Connecticut and 
Illinois for example, are listed among the most favorable 
States for LGBT protections.
    As I told my friend Joe Kennedy on the House floor last 
night, I know he and my other good friends who are co-sponsors 
of this bill are very sincere and well-intended. But so are the 
countless supporters of the RFRA statute and the religious 
minorities who rely upon it to preserve their most basic and 
inalienable rights and their right to provide essential goods 
and services to their communities.
    In a government of, by, and for the people are constant 
challenges to maintain a balance of the competing interests in 
society. The balance test of RFRA, it was originally championed 
and enacted by the leaders of the Democratic party, has served 
our Nation well. The legislation proposed today would 
eviscerate that tried, true, and cherished legal protection and 
effectively repeal it.
    Ironically, the Do No Harm Bill would cause great harm and 
immediate risk to the religious people and the thousands of 
religious organizations of all faiths in this country who 
provide the essential food, clothing, shelter, counseling and 
social services, jobs and well-being for millions upon millions 
of Americans.
    I urge my colleagues to proceed here with great caution. 
And let us work together, as they have in previous Congresses, 
to uphold and maintain the critically important RFRA statute in 
its current form. It works, and it should not be changed.
    I thank you, Mr. Chairman, I yield back.
    Chairman SCOTT. Thank you. And I note you mentioned the 
question of jurisdiction. This Committee has jurisdiction over 
matters related to equal employment opportunities like the 
EEOC, has jurisdiction over many health and human services 
programs, particularly those in child adoption. And the South 
Carolina case that I mentioned specifically used RFRA to deny 
opportunities. So all of those social services programs and the 
discrimination in those programs are within the jurisdiction of 
this Committee.
    Representative Kennedy.

     STATEMENT OF THE HONORABLE JOSEPH P. KENNEDY, III, A 
   REPRESENTATIVE IN CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. KENNEDY. I thank the Chairman for holding this 
important hearing and for his decades of leadership on this 
issue and so many issues with regards to our civil rights. And 
I want to thank the Ranking Member as well for her comments, 
and my colleagues on both sides of the aisle for attending 
today's important hearing, and my good friend Congressman 
Johnson for his dedication to these issues, for his engagement 
last night and over the course of the past several weeks, and 
his commitment to try to work together to discuss some of these 
issues as well.
    In 1993 Congress passed the Religious Freedom Restoration 
Act with an overwhelming bipartisan support, in response to 
Employment Division v. Smith. Which saw two Native Americans 
fired from their jobs and denied unemployment after they 
consumed a controlled substance outside of work as part of 
their religious faith.
    For these Native Americans, and other religious minorities 
like them, RFRA was meant to be a shield that protects. Because 
Native Americans should be free to practice their religion, 
because Jewish children should be able to wear yarmulkes in 
public schools that prohibit them. Because restrictions on 
facial hair should contain exceptions for those of the Muslim 
faith.
    However, over the years RFRA has morphed from a shield of 
protection to a sword of infringement. Allowing employers to 
undermined basic workplace protections, organizations to 
stonewall child labor investigations, and health providers to 
deny needed care for victims of sexual abuse.
    The Supreme Court's 2014 ruling in Burwell v. Hobby Lobby 
opened the doors for these flood gates even further, providing 
a path for corporations to cite their faith in discriminating 
against their employees.
    Since then we have witnessed an administration that has 
laid the foundation for discrimination in the name of religious 
liberty at every conceivable opportunity. Right now the Trump 
Administration is fighting to make it easier for women to be 
denied critical contraceptive coverage on the basis of an 
employer's religious and moral beliefs.
    The Department of Justice issued a memorandum to all 
Federal agencies and departments permitting employers to use 
their religious beliefs to discriminate in employment, even 
with publicly funded dollars.
    Earlier this year the Administration granted a request from 
South Carolina to use RFRA to waive non-discrimination 
requirements for State contracted child welfare agencies. That 
ruling allowed Miracle Hill Ministries, the State's largest 
foster care provider, to turn one woman, Aimee Maddona, away 
because she is Catholic and not Protestant.
    Only a few weeks ago the Administration cited RFRA to roll 
back the ACA's coverage to allow discrimination in healthcare 
simply because a person in need of healthcare happens to be 
transgender or because of a woman's reproductive healthcare 
decisions.
    It is precisely for these reasons that Congressmen Bobby 
Scott and I introduced the Do No Harm Act, to restore RFRA to 
its original purpose as a protective shield for religious 
minorities, to clarify that no claim of religious exemption 
from laws that protect against discrimination, that govern 
wages and collective bargaining, prohibit child labor and 
abuse, provide access to healthcare, or regulate public 
accommodations, provide social services through government 
contracts.
    The Do No Harm Act confirms what generations of civic 
history, constitutional law, and American experience have 
proved true. If civil liberties and legal rights exist only in 
the absence of a neighbor's religious objection, then they are 
not rights, but empty promises.
    The ability to freely and fully exercise sincerely held 
religious beliefs in this country is a liberty we all cherish. 
It is a bedrock foundation of this country. Across the Nation 
religious principle inspires countless families, organizations, 
and communities to champion economic justice, human dignity, 
common decency, and freedom.
    But there is a difference between exercising religious 
beliefs and imposing them on others. Our Constitution fiercely 
protects the former and expressly prohibits the latter.
    With civil liberties under attack, now is the time to 
affirm that the religious beliefs of one person do not 
supersede the civil rights of another. And that there is no 
religious exceptions to equal protection. It is time to restore 
RFRA to what it was originally intended to be.
    Mr. Chairman, I yield back.
    [The statement of Mr. Kennedy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman SCOTT. Thank you. And I want to thank Congressman 
Johnson and Congressman Kennedy for taking the time to testify 
before the committee today. Your testimony is a valuable piece 
of the Legislative record, and I want to thank you both for 
being here.
    We will now seat the second panel. We will delay for a 
minute or two as they get situated. We ask our witnesses to 
come forward.
    I will now introduce our witnesses for the second panel. 
Rachel Laser is the President and CEO of Americans United for 
Separation of Church and State. She formerly served as the 
Deputy Director for the Religious Action Center for Reformed 
Judaism, Director of the Culture Program, a Third Way, and 
Senior Counsel of the National Women's Law Center.
    Shirley Wilcher is the Executive Director of the American 
Association for Access, Equity, and Diversity. She previously 
served as Deputy Assistant Secretary of the Office of Federal 
Contract Compliance Programs during the Clinton Administration. 
Notably she worked for this Committee as Associate Counsel for 
civil rights under Chairman Augustus Hawkins.
    And J. Matthew Sharp is Senior Counsel for the Alliance 
Defending Freedom, where he directs the Center for Legislative 
Advocacy. He previously served as an associate at Equites Law 
Alliance, PLLC.
    Reverend Jimmy Hawkins serves as the Director of the 
Presbyterian Church (U.S.A.) Office of Public Witness in 
Washington, DC. For 20 years he served as a pastor of Covenant 
Presbyterian Church in Durham, North Carolina. He also serves 
as a board trustee with Union Presbyterian Seminary, has 
chaired several inter-faith, ecumenical, and non-profit boards.
    We appreciate all the witnesses for being here today and 
look forward to your testimony. Let me remind the witnesses 
that your written statements will appear in full in the hearing 
record pursuant to committee Rule 7d and committee practice. 
Each of you is asked to limit your oral presentation to a 5-
minute summary of your written statement.
    Let me remind you that it is unlawful to willfully falsify 
statements to Congress, and since you know that we won't swear 
you in.
    Before your testimony, please remember to press the button 
on the microphone in front of you so that it will turn on and 
members can hear you. As you begin to speak the light will turn 
green. After 4 minutes the light will turn yellow to signal 
that you have 1 minute remaining. When the light turns red it 
indicates your time has expired and we would ask you to wrap up 
as quickly as possible.
    We will let the entire panel make presentations before we 
move to member questions. When answering a question, please 
remember to once again turn your mic on.
    Ms. Laser.

  STATEMENT OF RACHEL LASER, J.D., PRESIDENT & CEO, AMERICANS 
           UNITED FOR SEPARATION OF CHURCH AND STATE

    Ms. LASER. Good morning, Chairman Scott, Ranking Member 
Foxx, and committee members. Thank you for the opportunity to 
testify on this critical issue.
    Last winter I met Aimee Maddona. Aimee, her husband and 
three kids want to open their home to children in foster care. 
Aimee was thrilled when after going through an intensive 
screening process, Miracle Hill Ministries said her family was 
just what they were looking for. But then they had one more 
question. What church do you attend?
    They asked because Miracle Hill only accepts Evangelical 
Protestants. Aimee couldn't pass that test because she's 
Catholic. Neither could Beth Lesser, who was turned away 
because she's Jewish. Nor could Eden Rogers and Brandy Welch, a 
same-sex Unitarian couple also rejected.
    Despite accepting $600,000 in Federal and State taxpayer 
money, Miracle Hill imposes a religious litmus test on 
potential parents and volunteers.
    This discriminatory policy denies children in the foster 
care system the love and families they need. Miracle Hill says 
religious freedom allows them to engage in this blatant 
religious discrimination. The Trump Administration agrees, and 
has used RFRA to exempt Miracle Hill from complying with the 
Federal Anti-Discrimination Law. But this isn't what RFRA was 
intended to do.
    RFRA was enacted in 1993 in response to the Supreme Court's 
Employment Division v. Smith opinion. Faith groups, legal 
experts, and civil liberties groups, including Americans 
United, came together across political divides to preserve 
religious freedom protections, especially for religious 
minorities. Allowing RFRA to be used to harm others also 
violates the Establishment Clause of the First Amendment.
    The government can't make you pay the cost of my religious 
exercise because that's preferring my faith to yours.
    Unfortunately, the Trump Administration is ignoring the 
intent and constitutional limitations on RFRA. It's weaponizing 
RFRA to undermine civil rights protections, deny people access 
to healthcare and government services, and even deny children 
loving homes. This harms LGBTQ people, women, the non-
religious, and religious minorities the most.
    RFRA, a statute designed as a shield to protect, is now 
being used as a sword to harm others. The Trump Administration 
has cited RFRA to create harmful religious exemptions, and more 
are coming.
    In addition to the South Carolina foster care waiver, 
employers are now allowed to deny their employees insurance 
coverage for birth control promised them by the ACA. And a 
Labor Department directive expands the ability of Federal 
contractors to cite religion to discriminate in hiring.
    Efforts to use religion to undermine Civil Rights 
protections are nothing new. In 1968, the Supreme Court 
rejected arguments that a restaurant owner could refuse to 
serve Black patrons because it was ``The will of God.'' Federal 
appeals courts, as recently as the 1990's, rejected Christian 
schools' claims that religious freedom allowed them to give 
married men larger benefits and salaries than women.
    Today we must continue to reject efforts to use religion to 
justify discrimination, and Congress can help. First, it should 
conduct oversight hearings on the Administration's misuse of 
RFRA. And second, Congress should pass the Do No Harm Act, a 
simple yet critical bill designed to restore RFRA to its 
original intent. It will preserve the law's power to protect 
religious freedom while clarifying it may not be used to harm 
others.
    Under the Do No Harm Act, RFRA would still provide 
protections, like ensuring Sikh service members can wear 
articles of faith while in uniform. RFRA couldn't be used, 
however, to allow a government funded homeless shelter to turn 
away a transgender person or to allow a homeowner's association 
to exclude non-Christians.
    Our country is strongest when we are all free to believe or 
not as we see fit, and to practice our faith without harming 
others. Like Aimee Maddona said, if you don't protect the 
rights of everybody it sets a precedent that will eventually 
touch on you.
    [The statement of Ms. Laser follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman SCOTT. Thank you. Ms. Wilcher.

  STATEMENT OF SHIRLEY J. WILCHER, MA, J.D., CAAP, EXECUTIVE 
DIRECTOR, AMERICAN ASSOCIATION FOR ACCESS, EQUITY AND DIVERSITY 
                            (AAAED)

    Ms. WILCHER. Good morning, Mr. Chairman and members of the 
Committee on Education and Labor. My name is Shirley Wilcher, 
and on behalf of my association, the American Association for 
Access, Equity, and Diversity, I appreciate the invitation to 
testify about the potential application of the Religious 
Freedom Restoration Act in the employment context.
    We have been asked to opine on particular implications of 
RFRA on the enforcement activities of the U.S. Department of 
Labor's OFCCP, the Office of Federal Contract Compliance 
Programs.
    Founded in 1974, my association has four decades of 
leadership in providing professional training to members, 
enabling them to be more successful and productive in their 
careers. It also promotes understanding and advocacy of 
Affirmative Action and other equal opportunity and related 
compliance laws to enhance the tenants of access inclusion and 
equality in employment, economic, and educational 
opportunities.
    We at AAAED, we call it, remain committed to preserving the 
laws enacted in the 1960's and beyond that were established to 
promote equal opportunity for those who have been historically 
disadvantaged based on race, religion, sex, national origin, 
disability, and more recently, sexual orientation and gender 
identity.
    We endorse the recently House passed Equality Act and urge 
its passage in the Senate. We also support the Do No Harm Act 
and this Committee's work to continue the legacy of Augustus 
Hawkins and other legendary members of this Committee who 
labored to secure employment opportunities for the increasingly 
diverse American workplace.
    The Office of Federal Contract Compliance Programs, as you 
know, enforces three laws, including Executive Order 11246 that 
prohibit discrimination. The underlying philosophy of these 
Civil Rights Era laws is that Federal funds should not be used 
to support discrimination, they should be used to promote equal 
employment opportunity.
    Last year the Federal Government issued and entered into 
560 billion in Federal contracts. That is a lot of funding, and 
it is important that money be used to promote equal employment 
opportunity.
    You know the tenants of RFRA that prohibits any agency, 
department, or official of the United States or any State 
government from substantially burdening a person's exercise of 
religion even if the burden results from a rule of general 
applicability except that the government may burden a person's 
exercise of religion only if it demonstrates that application 
of a burden to the person furthers a compelling government 
interest and is the least restrictive means of furthering the 
governmental interest.
    On August the 12th, the OFCCP issued a directive on the 
Religious Freedom Act, and it included a directive that the 
directive was to incorporate recent developments in the law 
regarding religion exercising organizations and officials. The 
directive also iterated the purpose of the Administration's 
Executive Order to protect religious exercise, not impede it. 
The OFCCP staffer ordered to take these legal developments into 
account in their compliance activities. They must respect the 
right of religious peoples and institutions to practice their 
faith without fear of discrimination or retaliation by the 
Federal Government.
    We have reviewed the available compliance activity of the 
OFCCP and found few cases involving religion. According to the 
Agency statistics, only one case between 2015 and 2018 in which 
a violation of religious day observance was identified. 
However, in the preamble to the final rule to the sex 
discrimination regulations handed down in 2016, the OFCCP 
addressed the issue of RFRA. And it said it declined to 
implement a blanket exemption from these provisions however, 
and there is no formal process when invoking RFRA, specifically 
as a basis for exemption under EO11246. However, insofar as the 
application of any requirement under this part would violate 
RFRA, each such application will not be required.
    Let me emphasize that the Executive Order already requires 
an exemption for religious organizations, and it tracks the 
exemptions from the Equal Employment Opportunity Commission. 
But our concern is about the effects of the application of 
RFRA. We are particularly concerned about the impact on the 
LGBT community but not others.
    In some respects what we saw in the South Carolina case and 
HHS is worrying us because it really is reminiscent of the 
lunch counter issues. How far do we go in the implication and 
the impact of that particular provision?
    We are also concerned because the OFCCP, when I was at the 
Department of Labor, let me say, there was discrimination that 
I found shocking. Between 1994 and 2001 I put together what we 
called egregious cases to remind America that discrimination is 
alive and well, and that includes cases involving the Ku Klux 
Klan. I can elaborate later, but all of that is to say RFRA 
adds insult to injury, in our view, because discrimination is 
alive and well and there are exceptions for religious 
organizations.
    [The statement of Ms. Wilcher follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    
    Chairman SCOTT. Thank you. Mr. Sharp.

  STATEMENT OF MATT SHARP, SENIOR COUNSEL, ALLIANCE DEFENDING 
                            FREEDOM

    Mr. SHARP. Good morning, Chairman Scott, Ranking Member 
Foxx, and members of the Committee. I am Matt Sharp, Senior 
Counsel with Alliance Defending Freedom.
    One of our Nation's greatest hallmarks is its commitment to 
protecting fundamental human rights, rights rooted in human 
dignity. Among these inalienable rights is religious freedom.
    A person's religious beliefs are core to their identity, 
and even to their relationship with those around them. These 
deeply held convictions guide them and even compel their 
commitment to social justice and to the community.
    From evangelical run homeless shelters or an Islamic hunger 
relief program to a Catholic run adoption and foster care 
provider, these charitable organizations should not be forced 
to choose between abandoning their beliefs and inspire their 
service or being denied fair and equal treatment by the 
government. Such action would not only undermine these national 
virtues that make us unique, but it would also have a 
devastating impact on some of the most disadvantaged members of 
society.
    Children displaced by the opioid crisis in need of a loving 
home, survivors of sex trafficking and domestic abuse seeking 
shelter, the addicted longing for relief, and low-income 
families in dire need of a roof over their heads.
    Every day people of faith serve their neighbors, offering 
food, clothing, shelter, and other social services. They 
provide jobs for thousands. And while this economic benefit of 
religion was recently valued at $1.2 trillion annually, we 
can't put a price on the countless lives forever changed by a 
helping hand from faith communities.
    But religion's vast benefit to the whole of American 
society will only last so long as people of faith maintain the 
freedom to exercise religion, not just in their home or place 
of worship, but at work and in a wider community.
    Unfortunately, proposals like the Do No Harm Act undermine 
that liberty. The Act's sole purpose is to declare open season 
for government regulation on broad swaths of religious exercise 
by individuals, houses of worship, non-profits and many more 
without offering any meaningful judicial scrutiny whatsoever.
    The Act would impose great harm on religious minorities by 
conditioning their free exercise on the whims of those in power 
who seek to disfranchise this favored use.
    But RFRA safeguards every person's ability to peacefully 
live, work, and act consistent with their beliefs even when 
those beliefs might be politically unpopular. RFRA gives those 
burdened by the weight of intrusive government regulations a 
judicial forum where their voice can be heard and relief can be 
sought.
    For many people of faith, from Native Americans and Muslims 
to Rainbow Family and Rastafarians, every aspect of their lives 
has eternal consequences. The Muslim prisoner believes it is 
disrespectful to the Prophet Mohammad to shave his beard. The 
Jewish shop forced to open on Sundays would openly defy the 
Torah's command to remember it as a day of rest. The Catholic 
nun mandated to pay for abortion inducing drugs would trample 
underfoot the sanctity of an innocent human life. And the 
grandmother florist told she must design a floral arrangement 
for a friend's same-sex wedding would dishonor a sacred 
institution established by God.
    We may not share these beliefs but the real test of 
religious liberty is what happens when we disagree. 
Disagreement is not discrimination and it should never be 
treated as such. Nor should disagreement provide justification 
to shut the doors of the justice system to minority beliefs 
simply because the whims of societal acceptance have shifted 
direction.
    Few of us here today would support the religious practices 
of the peyote drug users in Employment Division v. Smith or any 
of the other cases involving controlled substances and 
religious rituals. But I think we can all recognize that one 
day the winds may change and it can be our religious practices 
facing government scorn.
    RFRA was crafted to take the thumb off the scales of 
justice, take the thumb off the scales of justice that had been 
used to favor government over people of faith. And restore that 
proper balance, one that honors the high place that religious 
freedom and exercise holds in our Constitutional system. It 
doesn't determine winners or losers. Nor does it mean that 
religion will prevail. RFRA simply protects the process for 
balancing the government's interest with individual freedom.
    And that process helps to safeguard values that all of us 
here today hold dear. Values like diversity, like human 
dignity, freedom for all, and the conviction that no American 
should suffer discrimination at the hands of the Federal 
Government for publicly living out their faith.
    Twenty-five years after RFRA our Nation is more diverse 
than ever, and we hold increasingly divergent views on beliefs 
ranging from marriage and abortion to immigration and the 
opioid crisis. And people of faith continually find themselves 
caught in the crossfire as their beliefs and practices are both 
misunderstood and subject to popular scorn.
    In these times the need for RFRA has not diminished. Today 
RFRA is more vital than ever.
    Thank you.
    [The statement of Mr. Sharp follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman SCOTT. Thank you. Reverend Hawkins.

STATEMENT OF REVEREND JIMMIE R. HAWKINS, DIRECTOR, PRESBYTERIAN 
       OFFICE OF PUBLIC WITNESS, PRESBYTERIAN MISSION USA

    Mr. HAWKINS. Good morning, Chairman Scott, Ranking Member 
Foxx, and committee members. Thank you for this opportunity to 
be with you here today. I am an ordained minister with the 
Presbyterian Church (U.S.A.) and serve as the director of the 
church's Office of Public Witness.
    Religious freedom is sacred to me and to my denomination. 
For more than 200 years our historic principles have recognized 
the importance of religious freedom. And, of course, it is a 
fundamental American value.
    In 1993, consistent with our teachings, the Presbyterian 
Church supported the pass of RFRA as a way to allow persons and 
religious groups to practice their faith without constraint of 
the government. Unfortunately, over the years RFRA has become a 
weapon aimed at excluding, marginalizing, and discriminating 
against vulnerable populations. This misinterpretation of RFRA 
runs counter to religious freedom and the teachings of my 
faith.
    In our commitment to be disciples of Jesus Christ, my 
church is called to stand against oppression and in support of 
human dignity for all people because religious freedom must be 
equal and common to all. It cannot be maintained as a matter of 
privileged exemption for powerful individuals or groups. 
Religious freedom gives each of us the right to believe in 
accord with our own conscience, and practice our faith, as long 
as we don't hurt others.
    We believe it weakens religious freedom when it is invoked 
in ways that deprive people of their civil and human rights to 
equal protection under the law or seek to justify exclusion and 
discrimination.
    Presbyterians have historically valued religious liberty 
and continue to support the freedom to act according to one's 
religious beliefs.
    However, in cases involving the refusal of goods and 
services, false claims of religious freedom cause direct harm 
to those who are denied access. Legislating such claims as 
cases of protected religious freedom would undermine years of 
progress in State and Federal civil rights and anti-
discrimination law.
    As Chairman Scott gave comment to the battles over slavery 
and racial segregation, religion and scripture are often cited 
as justification for maintaining inequality. People even heard 
it preached from pulpits on Sunday morning. Until the Civil 
Rights Era, refusals to serve African Americans were often 
cloaked under the guise of religious freedom. As well as 
support for slavery, which was given a theological and biblical 
undergirding.
    In the end we are called here today to stand for the 
religious freedom and the rights of the individual. United 
States civil courts have rightly rejected the claims of those 
who have said that racial integration would violate their 
religion.
    Invoking religious freedom to deprive people of their 
rights is still occurring today. As we see, RFRA is being 
misused to cause some harm.
    Over the years, individuals and businesses have found ways 
to circumvent the original purpose of RFRA to discriminate 
against persons and to impose their religious beliefs on those 
who believe otherwise or who don't even believe at all. 
Personal prejudices have been enforced under the guise of 
religious sentiment. In this way some dominant religious groups 
have not been able to persuade us to stop the march of greater 
equality are now claiming discrimination, trying to use 
religious freedom as their last refuge.
    In 2018, motivated by this misuse of RFRA and other 
religious freedom laws and policies, the Presbyterian Church 
passed a resolution to stand against any invocation of 
religious freedom in the public sphere that deprives people of 
their civil and human rights to equal protection under the law 
or that uses religious freedom to justify exclusion and 
discrimination.
    That is why today the church supports the Do No Harm Act 
which will return RFRA to its original intent. It will protect 
religious freedom, but not be used to harm others. There can be 
no religious freedom without equal respect for the dignity of 
all persons. A dignity that is denied when services are 
refused. When claims of religious freedom become public efforts 
to exclude and discriminate, we are called to speak up for 
justice and to stand with the oppressed.
    Thank you.
    [The statement of Mr. Hawkins follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    Chairman SCOTT. Thank you. Under Committee Rule 8a we will 
now question the witnesses under the 5-minute rule. And we will 
first recognize the gentleman from Connecticut, Mr. Courtney.
    Mr. COURTNEY. Thank you, Mr. Scott, for holding this 
hearing today. And thank you to all the witnesses for your 
testimony this morning.
    You know, listening to, again, what we have heard here 
today, it does seem we have to go back a little bit to 1994 
when the RFRA law was passed. And again, Ms. Laser, you again 
sort of alluded to the fact that again, this was an attempt to 
rebalance the law after the Smith decision. Can you talk about 
what the law looked like prior to that Smith decision in terms 
of the balancing test between compelling State interest, as 
well as restrictions being, you know, protected?
    Chairman SCOTT. Your microphone, please.
    Ms. LASER. Prior to the Smith decision the law was much 
like the RFRA balancing test intends to be. So if you had a 
sincerely held religious belief that was substantially 
burdened, the only way that could be overcome is if the 
government had a compelling interest and it was narrowly 
tailored.
    And, you know, that law was sort of working until 
Employment Division v. Smith when Scalia wrote his opinion. 
RFRA was in response to that previous balancing being out of 
whack from Employment Division v. Smith, and that's why so many 
groups across political divides came together.
    Everyone agreed that these Native Americans engaging in 
this healing peyote smoking ceremony deserved protection from 
these prohibitions on receiving unemployment if you failed a 
drug test. So that's why it came into being.
    Unfortunately, soon after RFRA passed in 1993 there started 
being indications that it was going to be misused in the ways 
that we are seeing so much of today. For example, commercial 
landlords right away argued that RFRA gave them the right to 
impose their religious beliefs that people shouldn't be 
cohabitating before marriage, and to ignore housing 
discrimination laws and refuse housing to unmarried couples. So 
we did start to see that pretty soon after RFRA passed.
    But what's really important is RFRA would have never passed 
as a consensus bipartisan bill had it been assumed that it was 
going to cover cases like that.
    Mr. COURTNEY. So basically what has happened is the 
compelling State interest has sort of then continued to be 
degraded to the point where it really, again, as has been 
testified, became more of a sword rather than a shield in terms 
of protected groups.
    Ms. LASER. Yes. And in the Hobby Lobby case in particular, 
the court actually changed the meaning of substantial burden 
and sort of made it much easier to meet, much more like just 
meeting the sincerely held religious belief test. And they also 
made it harder for the government to prove that they had a 
narrowly tailored solution to their compelling interest. And so 
the court actually changed the balancing test for the worse 
from pre-Smith law in the Hobby Lobby decision.
    Mr. COURTNEY. So you have described one example in your 
testimony of the homeless shelter refusing access to a 
transgender person. Again, the compelling State interest in 
that case is where Federal funds are paying to support the 
emergency housing. Emergency housing is the compelling State 
interest, which should be upheld despite whatever a person's 
view is of a transgender or other minority individual.
    Ms. LASER. Exactly. Government services are provided for 
people in need. We feed people, we give people shelter, we take 
care of people when they are in dire conditions.
    Like Samantha Coyle in Alaska, who is a transgender woman 
who showed up at a government-funded homeless shelter and was 
turned away and had to sleep in the woods. And that's not how 
we want our government acting, denying much needed services to 
people in the name of religion.
    Mr. COURTNEY. And other examples of compelling State 
interest would be, again, the access to healthcare, coverage 
for medically prescribed services. Which again, if you degrade 
the compelling State interest it effectively becomes a barrier 
from people getting what their doctors tell them they need; is 
that correct?
    Ms. LASER. Absolutely. We need to put patients first and, 
you know, that's not happening with a lot of the regulations 
that we are seeing today come out of the Trump Administration 
in the name of RFRA and religious freedom.
    Mr. COURTNEY. So the Do No Harm Act, I mean is that sort of 
the purpose is for Congress, again, to revisit this issue and 
to restore what was the original intent of RFRA and, again, 
what was traditionally the way the Supreme Court interpreted 
the Free Exercise Clause; is that correct?
    Ms. LASER. That's right. And also to make sure that we are 
holding to the Constitution and the Establishment Clause. The 
Do No Harm Act doesn't change the balancing test that we are 
talking about. It just makes sure that the Establishment Clause 
law is in effect. And the Establishment Clause says that you 
can't use your religion to cause harm to third parties.
    There's a line of Supreme Court cases that say that Calder 
and Cutter, and it was clear from our founding framers as well. 
And that is what the Do No Harm Act does.
    Mr. COURTNEY. Great. Thank you.
    Ms. LASER. Thank you.
    Chairman SCOTT. Thank you. The gentleman from Tennessee, 
Dr. Roe.
    Dr. ROE. Thank you, Mr. Chairman. We have a First Amendment 
right to practice our religion in America, and the government 
forcing someone to act in a way that violates those beliefs is 
in direct opposition to the very foundation of our 
Constitution.
    The Religious Freedom Restoration Act protects our First 
Amendment right. The RFRA does not pre-determine winners and 
losers, and in fact is noted in testimony over 80 percent of 
the time the court rules in favor of the government, not under 
RFRA.
    My colleagues on the other side of the aisle will tell you 
that RFRA is being used as a license to discriminate. That is 
not true. The RFRA protects people of faith from discrimination 
by allowing them to challenge government actions that would 
burden their freedom to practice their religion. This is not 
about forcing religious beliefs on anyone. This is about not 
forcing people of faith to abandon their beliefs.
    Now I want a question for either Mr. Sharp or Reverend 
Hawkins. In 2016 the Obama Administration HHS published final 
rules under Section 1557 of the Affordable Care Act that 
expanded the definition of sex to include gender identity and 
termination of pregnancy.
    Under these rules, would religious hospitals or doctors be 
forced to offer or perform procedures that violated their 
beliefs or values? And what are the consequences for providers 
that choose not to violate those beliefs?
    I am one of those providers. As a matter of fact, look at 
the dais, I am the only one up here. I am an OBGYN doctor. So 
what is the answer to that question?
    Mr. SHARP. Thank you for the question. And when you look at 
what was originally enacted with 1557, it was protecting 
against sex discrimination. And then that was ultimately 
through an HHS regulation expanded to include gender identity.
    But you bring up the importance of the purpose of RFRA and 
that balance it provides. Because for a medical provider they 
may have deeply held religious beliefs regarding a variety of 
medical services. And what we want to make sure is that 
provider has a process by which they can go to court and 
explain their religious convictions and at the same time the 
other side, the government can go to court and explain their 
interest involved as well.
    What we want to secure is that process for physicians like 
yourself, for medical providers across the country, just to 
have that access to the doors of justice to plead their case in 
court.
    Mr. HAWKINS. I think it is indeed a delicate balance, and 
it is difficult to have the identity of a doctor and of a 
Christian. But I do like the name of the act, Do No Harm. And I 
have said in the past that doctors have stolen their Christian 
theme because we are called to do no harm in our faith.
    I think there are always limitations on either side and I 
think that as a minister there are limitations that have to be 
imposed upon me and my servant on--
    Dr. ROE. The question I have is not that. The question I 
have is will I be forced to perform something that I believe is 
wrong, which is an abortion.
    Mr. HAWKINS. The question is will you be forced? You mean 
by government regulations?
    Dr. ROE. That is correct. Just what I am asking. If this 
happens would providers like myself be forced to do the 
procedure they believe is morally wrong?
    Mr. HAWKINS. I think there will be times when you have to 
struggle with that question.
    Dr. ROE. I don't have any struggle with it at all. I have 
none.
    Mr. HAWKINS. I think that in our Christian walk there are 
times when we are, if you want to use the word forced, we are 
compelled to do things that might personally bother us. For 
example, as I was about to say, as a minister I counsel others. 
And yet if I learn--
    Dr. ROE. I am not talking about counseling somebody, I am 
talking about actually doing a medical procedure, that is what 
I am asking.
    In the testimony, Mr. Sharp, you then mentioned without 
RFRA protections many religious organizations would be forced 
to stop providing services such as homeless shelters, community 
gardens, nursing home services, and more to the general public. 
When it comes to preventing services mandates, do you believe 
that the impact would include providing health coverage for 
employees? Do you believe that organizations will be forced to 
drop coverage all together rather than violate their beliefs?
    Mr. SHARP. Thank you. And I think that is among the 
concerns that RFRA is designed to help prevent. When you look 
at the claims brought by a variety of groups, whether it was 
Little Sisters of the Poor, Geneva College, the Mennonite 
Conestoga Wood Specialties and others, they were facing this 
very difficult choice of we want to take real good care of our 
employees but we also have that duty to God that we are trying 
to honor. And we want to balance that, and the best way we do 
it is let's provide great healthcare but at the same time don't 
force us to pay for things and to support things that we 
believe violate that sanctity--
    Dr. ROE. I want to say one other thing, my time is about 
expired. But in the Hyde Amendment it states that we don't 
intend to use Federal dollars to fund abortion. I think in the 
private business asking for the same protections with private 
dollars as with public dollars when they have to provide a 
service they don't think they should.
    Mr. Chairman, I yield back.
    Chairman SCOTT. Thank you. Gentleman from Northern Mariana 
Islands, Mr. Sablan.
    Mr. SABLAN. Yes. Thank you very much, Mr. Chairman, for 
holding today's hearing. I find quiet time every day of my life 
to just contemplate on if there is something that I have done 
or something I had failed to do to harm someone or make someone 
even uncomfortable, and that how I could fix that. I try to 
live my life that way. I don't always succeed but I know I am 
not condemned to hell because I do that.
    But let us talk about recent law. When Congress passed the 
Affordable Care Act our country took an historic step forward 
on the path toward healthcare justice by protecting millions 
more from discrimination in healthcare settings. Specifically 
Section 1557 of the ACA prohibits Federal health programs and 
entities that receive Federal financial assistance from 
discriminating based on the race, color, national origin, sex, 
age, and disability status.
    I was hoping that the panel might be able to briefly 
discuss the importance of these protections for the American 
people. So, Ms. Laser, may I ask, prior to the ACA, what 
protections existed to prevent discrimination in healthcare, 
and how did they compare to the protections in Section 1557?
    Ms. LASER. Thank you. The Healthcare Rights Law 1557 is a 
landmark piece of legislation in large part because, remarkably 
to me actually as a woman, it is the very first law to prohibit 
discrimination on the basis of sex by healthcare providers that 
receive Federal financial assistance. First time ever in 
healthcare law that applies to healthcare programs that receive 
financial assistance from the government.
    And what that means, according to settled case law, is that 
it prohibits not just discrimination against women but 
discrimination based on gender identity and also sex 
stereotyping. Because that's what the courts have found sex 
discrimination includes.
    It also includes discrimination on the basis of pregnancy 
and pregnancy-related conditions, including termination of 
pregnancy.
    And the other aspect of this bill that is wonderful is that 
it recognizes that there is discrimination in access to 
healthcare if you are not acknowledging the difficulties to 
access for people who are limited in their English proficiency. 
And therefore it brings along provisions that takes care to 
give translation notices, tag lines and such for people who are 
not native English speakers.
    Mr. SABLAN. Yes, like for myself, I have a limited number 
of English words every day so once I use it up I get confused. 
You know, there really is a reason why there is a saying that, 
you know, we don't discuss politics and religion at the kitchen 
table when we sit down for a meal, otherwise it could blow up.
    But, Ms. Laser, what impact would ending these protections 
that we just talk about have on communities historically 
subject to discrimination in healthcare as well as the remote 
island communities like the colonies, like my district, with 
access to challenges and ongoing provider shortages.
    Ms. LASER. Yes. You know, sometimes when you belong to a 
majority group it is hard to even understand or know the 
difficulties and challenges that people face who are part of 
minority groups. But there are extensive difficulties that 
folks who are part of minority groups face in the healthcare 
system, and barriers to access.
    People who are transgender reportedly one in four don't 
even go and seek care because they are so concerned about being 
harassed or turned away by the healthcare system. Women have 
confronted many problems. Many studies don't even reflect how 
drugs effect women's health. Women haven't been taken into 
account, and women would suffer. And so would gays and lesbians 
who, you know, lesbians are turned away from physicians, 
etcetera.
    Mr. SABLAN. Ms. Laser, with my time I have one question. 
Reverend, you said this in your statement, ``Today we see RFRA 
being misused to cause harm.'' Can you in a very short time 
express that?
    Mr. HAWKINS. Yes. Many of the cases that we have examined 
wherein a transgender woman was fired because she was 
transgender. Wherein individuals find themselves such as 
seeking to be foster parents, and because of their religious 
beliefs, do not align with the agency that is in charge they 
are denied the opportunity to be foster parents.
    Mr. SABLAN. Yes. But my time is up, but I think God spoke 
to someone and said remove that person from this service 
because his different religion. There is only one God.
    Mr. HAWKINS. Yes. And God loves us all.
    Mr. SABLAN. I love you too, Reverend. Thank you.
    Chairman SCOTT. Thank you. The gentleman's time has 
expired. Mr. Thompson.
    Mr. THOMPSON. Thank you, Chairman. Thanks all the members 
of the panel for being here.
    Mr. Sharp, I appreciate your being here today. A normal 
feature of RFRA is that it requires the government to explain 
and justify a restriction on religious liberty. I mean our 
country was formed by those who were seeking religious liberty.
    The government must show that there's a compelling interest 
and the restriction is the least restrictive means of achieving 
interest. Now does RFRA give individuals some much needed 
leverage when dealing with the Federal Government, and does it 
increase government transparency and accountability?
    Mr. SHARP. Yes. RFRA's a check on oppressive government 
regulation. It gives that religious minority whose practices 
are burdened by a government rule or regulation a check that 
they can go to court and they can let their voice be heard and 
have an opportunity to seek relief from what the regulation 
imposes on them.
    So absolutely it creates government accountability. And it 
requires the government not only to respond when it infringes, 
but even when they are looking to pass laws, looking to enact 
regulations, to take a step back and say is this going to 
impact the religious exercise of an individual, and make sure 
that they are showing that proper protection and that proper 
respect for our First Amendment rights.
    Mr. THOMPSON. I would like to follow up about RFRA as it 
relates to the Affordable Care Act. As you know, the Trump 
Administration released two interim final rules in October 2017 
dealing with moral exceptions or religious exemptions for 
coverage of certain preventative services under the ACA.
    With that being said, can any employer decide that they no 
longer wish to pay for preventative services and claim a 
religious or moral exception under these recently finalized 
rules, and are there guidelines in place for employers looking 
to use these exception processes?
    Mr. SHARP. Thank you for that question. So after the 
Affordable Care Act and the contraceptive mandate we saw 
numerous organizations, non-profits, the Little Sisters of the 
Poor, Geneva College, and a few closely held businesses as 
well, find their beliefs in conflict in the law.
    I thought it was interesting, I was reading something 
recently, I think it was former ACLU President Nadine Strossen, 
and even RFRA was being debated in 1993 and `94, specifically 
raised this concern that absent RFRA, and under the Smith 
ruling, religious organizations could be forced to provide 
abortions or contraceptives. And so what this ruling in Little 
Sisters of the Poor and others and this recent interim rules do 
is show that proper respect for people's faith. To give those 
that have a deeply held religious belief or moral conviction 
about the sanctity of life, the opportunity to get an 
exemption, not from providing health care but from providing a 
handful of contraceptives or other items that they believe 
terminate an innocent human life.
    And so what these do is protect that freedom of conscience. 
Again, a very tailored, balanced approach that protects those 
while also furthering the other interests involved in 
healthcare.
    Mr. THOMPSON. Thank you, Mr. Sharp. Chairman, I yield back 
the balance of my time. I yield to the Ranking Member.
    Mrs. FOXX. Thank you, gentlemen, for yielding. Mr. Sharp, 
your testimony cites several studies on the Religious Freedom 
Restoration Act cases. One study said 70 percent of RFRA claims 
are made by individuals, 15 percent by houses of worship, and 
15 percent by non-profit organizations, educational 
institutions and for-profit businesses.
    There were only three reported cases brought by for-profit 
companies. What does this data say to you about who is being 
protected by RFRA?
    Mr. SHARP. I think it demonstrates that RFRA is continuing 
to serve those who are most impacted by oppressive government 
regulations. It is often the individual, the place of worship, 
the non-profit, very powerless organizations that most feel the 
brunt of any government regulation. And so again, the study you 
are referencing was done in 2018, so this is post-Hobby Lobby, 
looked at it and said well, what we are continuing to see is a 
pattern that these individuals and houses of worship are making 
up the majority of cases, the majority of instances where a 
person of faith is seeking relief, going to court, and making 
their case.
    And again, we do want RFRA to extend to everybody. We think 
everyone deserves that opportunity, but it is continuing to 
serve the groups it intended to.
    Mrs. FOXX. Thank you, Mr. Chairman. I yield back to Mr. 
Thompson.
    Mr. SCOTT. Thank you. The gentlelady from Oregon, Ms. 
Bonamici.
    Ms. BONAMICI. Thank you, Mr. Chairman and Ranking Member. 
Thank you to all of our witnesses, Ms. Laser especially. I 
followed the work of the Americans United for Separation of 
Church and State for years, and I commend you for so capably 
filling the very big shoes of Barry Lynn.
    So I am from Oregon, so just for the record the full title 
is Employment Division of Oregon v. Smith, the case that 
originated in my home State.
    I also chair the Civil Rights and Human Services 
Subcommittee here on the full committee, and I am deeply 
concerned about the Trump Administration's efforts to roll back 
individual rights and liberties under the guise of protecting 
religious freedom.
    And as we have heard from our witnesses this morning, the 
intent of the original Religious Freedom Restoration Act was to 
protect the rights of religious minorities, not to use religion 
to somehow justify discrimination against women, communities of 
color, LGBTQ individuals, and other minorities.
    So, Reverend Hawkins, thank you for emphasizing the 
importance of protecting personal religious views. And just to 
follow up on Ranking Member Foxx' question about the number of 
cases brought by corporations. To me it is because corporations 
don't have religious beliefs, they are corporations. That was 
always baffling to me about the Hobby Lobby case to begin with.
    But, Reverend Hawkins, in your written testimony you said 
legitimizing these kinds of claims as cases of protected 
religious freedom would undermine years of progress in State 
and Federal civil rights and anti-discrimination law. The key 
distinction lies in the choice being limited or projected 
personally choosing not to have an abortion or use birth 
control, for example, is religious freedom. Making that choice 
for someone else on the basis of one's own religious principles 
is religious oppression.
    I couldn't agree more, the way you phrased it. And how have 
the examples, Reverend, how have the examples we have discussed 
here today show that RFRA is being used not just to protect 
personal views but to infringe on the views and beliefs of 
others?
    Mr. HAWKINS. If I am an employer and I have the power to 
determine who gets hired and who does not get hired, who gets 
fired. I have power over that individual. And therefore I can 
use my religious views, my beliefs to try to influence them in 
a way that goes beyond the quality of work that they are 
performing.
    We all have religious freedom as individuals, and like you 
I kind of question about where the corporations have religious 
views. They really reflect the religious views of the 
individuals who are in charge.
    So I cannot do anything in my personal faith walk to harm 
another person. I cannot allow my religious views to say that 
well, you are right and I am wrong. Because every religious 
view is limited, every person, no matter what denomination you 
belong to, there are strengths and weaknesses within that faith 
system.
    So we have to be careful, especially when we try to 
determine who is righteous and who is Christian, who is non-
Christian, and impose our beliefs upon them.
    Ms. BONAMICI. Thank you. And, Ms. Laser, I am deeply 
concerned about this Administration's ongoing attacks on 
women's health and women's right to make their own reproductive 
healthcare decisions. And as we have heard today, without 
appropriate safeguards, religious liberty can begin to subvert 
the rights of other people. And I look at Title X for example, 
the Family Planning Program.
    The Nation's dedicated source of Federal funding for family 
planning and annually Title X health centers provide high 
quality family planning and sexual healthcare for four million 
predominately low income people.
    In 2017 in my own State, nearly 45,000 Oregonians got 
lifesaving preventive health services, breast and cervical 
cancer screening, testing and treatment for sexually 
transmitted diseases, HIV testing, contraceptive service 
supplies and information.
    And yet now under this Administration this very successful 
program is in danger. I look at this domestic gag rule that 
basically eliminates comprehensive pregnancy options 
counseling. And the result is the government telling doctors 
and nurses how to do their job. And essentially the rule is 
bending over backward to appease anyone or entity whose opposed 
to women's access to comprehensive health services.
    So, Ms. Laser, are we seeing a pattern by the 
Administration when it comes to attacks on women's health, and 
how is religious liberty being used to compromise the health 
and safety and decisions, personal health care decisions of 
women?
    Ms. LASER. Yes. We definitely are seeing that sort of 
pattern that you are alluding to, in addition to the Title X 
issues and, you know, I would like to remind people that Title 
X was signed into law by President Nixon actually originally.
    We are also seeing the attacks on women's health in the 
form of the final regulations on birth control that we have 
been talking about that would allow all bosses to deny access 
to affordable birth control to their employees, universities to 
deny access to birth control to students.
    We actually brought a lawsuit against the Trump 
Administration and Notre Dame on behalf of a group of students 
at Notre Dame who are seeking affordable birth control there 
but their options are being limited by the university.
    There is also recently the Denial of Care Rule that the 
Administration issued that would allow everyone associated with 
the medical industry, from the scheduler to the doctor, to turn 
away patients, even in cases of sort of life endangerments, 
based on their moral and religious views. And that would also 
definitely impact women, over women showing up needing to 
terminate an ectopic pregnancy that is endangering her life, 
could be turned away based on the Denial of Care Rule.
    Then we have got the proposed rule for 1557, the healthcare 
law that we were talking about, that the landmark legislation 
that put sex discrimination prohibition into Federal healthcare 
law that would undermine those protections, erase gender 
identity and sex stereotyping entirely from the regulations, 
and allow for another gaping hole like you are referencing, 
religiously affiliated hospitals and insurance companies to 
have a religious exemption when it comes to the sex 
discrimination provision.
    Ms. BONAMICI. That's very concerning and I see my time has 
expired. Thank you, Mr. Chairman, I yield back. Thank you for 
your testimony.
    Mr. SCOTT. Thank you. Gentlemen from Michigan, Mr. Walberg.
    Mr. WALBERG. Thank you, Mr. Chairman. And thank you to the 
panel for being here. Mr. Sharp, thank you for standing firmly 
for American values, Constitutional values, as a lone voice in 
many cases for what we just took for granted.
    In a union that wasn't perfect, in fact this union, as our 
framers and founders said, we were to make a more perfect 
union. That's a continuing effort that we have to do.
    For the other members of the panel, again, thank you for 
being here, but your testimony is troubling, troubling to me.
    As I sense that I am to acquiesce in my faith. My faith is 
personal, I don't push it on anybody else. When my faith says 
to me that I should take God at his word and act accordingly. 
And my God says I am to love all. Those he loves, I must love. 
But what he condemns I cannot condone.
    Again, that is acts, that is philosophies, that is values 
of others, I understand that. But I am a Christian first and a 
Congressman second. My faith is not divorced from my life. And 
I would expect everyone else who has a similar belief, whatever 
that might be, that they in this country should be free. So, 
Mr. Sharp, thank you for standing for that.
    Regardless of whether we are Judea, Christian, or any other 
belief, or no belief at all, that is the beauty of our country.
    And when we talk about diversity, if it is diversity 
without allowing those of us who have a strong value system 
based upon our faith and not express that freely, again, loving 
all those that God loves, but not condoning what he condemns.
    We have a problem in this country. Northwest Ordinance, a 
key principle document for our country, says religion, 
morality, knowledge, being necessary to good government and 
happiness of mankind, schools and a means of education shall 
forever be encouraged. It starts with religion, morality, 
knowledge.
    Jonathan Witherspoon, a minister who signed the Declaration 
of Independence, said a republic once equally poised must 
either preserve its virtue or lose its liberty.
    As so, Mr. Sharp, thank you for being here today, and the 
work you do for religious freedom as a fundamental human right.
    I would like to share a situation that is ongoing in my 
home State of Michigan. St. Vincent Catholic Charities has been 
serving at-risk children in Michigan for over 75 years by 
finding foster and adoptive parents for children in need of a 
loving home. Sadly, in 2017, the ACLU sued the State of 
Michigan to forbid the State from partnering with faith-based 
adoption agencies like St. Vincent solely because of their 
religious beliefs. That lawsuit led the State of Michigan in 
March to announce that contrary to State law, it would stop 
partnering with faith-based agencies like St. Vincents.
    For Catholics, that we have already talked about, who 
couldn't be part of adoption or fostering and other situations. 
Over 12,000 children in the State of Michigan are waiting to be 
adopted and the State can't find enough families to care for 
them. The government is now compelling this agency either do 
what we say and violate your beliefs, we can't adopt children. 
12,000 innocent children are being impacted.
    And then we find one Bethany Christian Children's Services 
acquiesces and gives away their faith and says we will do 
whatever the State says. That's a violation of our 
Constitution.
    Mr. Sharp, the government should not be in the business of 
forcing adoption. I describe this one case. How would narrowing 
RFRA threaten charities and non-profits across the country?
    Mr. SHARP. To the exact point you raise, you know, we have 
got crises going on. I think the total is over 400,000 children 
across the country in need of a loving home. We want as many 
organizations as possible to help combat that crisis. But when 
you tell them that the cost of them serving those children is 
them checking their faith at the door, of abandoning those 
principles, it is going to dissuade them from doing so. And so 
at the very time we need more involved, we need laws to ensure 
that they are encouraged to get involved and if they do they 
don't have to worry about the government punishing them for 
their beliefs. That is the type of harm that RFRA helps to 
protect, by ensuring there is a process for people of faith to 
have their religion.
    Mr. WALBERG. And there is no other entity out there, 
whatever it is, faith or lack of faith, that can be held back 
from having those services available to those that they would 
choose?
    Mr. SHARP. That's right. There are numerous adoption 
providers throughout the State that serve same sex couples, 
other couples, we want a diversity, we want a variety of groups 
all working together to solve this problem, and that includes 
ensuring people of faith are part of that.
    Mr. WALBERG. And they should step up. I yield back.
    Mr. SCOTT. Thank you. Gentleman from California, Mr. 
Takano.
    Mr. TAKANO. Thank you, Mr. Chairman. Thank you, Chairman 
Scott, for holding this very important hearing on religious 
liberty.
    Liberty is fundamental, it is pre-political, it is pre-
modern, it is part of our human history and is, I agree, is an 
important foundation for public morality and personal morality.
    But in a Constitutional democracy, one that values 
fundamentally not establishing one religious faith over 
another, religion should not be used as a shield for 
discrimination. When a Federal contractor or a grantee receives 
taxpayer dollars to provide a service, they receive taxpayer 
dollars to provide a service. And granted there are many, many 
different contractors out there. They are stepping into the 
shoes of the Federal Government.
    If a religious social services organization were to receive 
Federal dollars and then also receive a religious exemption 
from serving LGBTQ individuals or individuals who may not be of 
a faith or any number of ways in which the people of service 
may not be in accord with the people who run that agency, that 
organization would be using Federal dollars to discriminate.
    Now this is a huge problem as it is in direct conflict with 
the strong protections the Federal Government has in place not 
to discriminate against protected categories such as race, 
religion, national origin, sex, sexual orientation, or gender 
identity.
    Federal services like emergency shelters, workplace 
training programs, and housing assistance programs, are 
designed by Federal agencies to respond to and identify need 
within American communities and should be free from 
discrimination.
    Now, Mr. Sharp, I am sure you are aware of the specific 
example in South Carolina of foster care parents, of HHS 
specifically relying on RFRA as a justification to grant them a 
waiver to allow them to discriminate against LGBTQ parents who 
want to adopt or take in foster children. So they are relying 
on RFRA as part of their justification.
    They are receiving Federal dollars. Do you think it is 
right for a religious organization that does not believe in 
serving LGBTQ individuals to be allowed to take Federal dollars 
and then also then discriminate against certain categories of 
people, including LGBTQ people?
    Mr. SHARP. Thank you for that question. One of the beauties 
of RFRA is that it does not pick winners and losers. It is that 
process, that balancing process. And so when we talk about the 
specific context of adoption providers there are a lot of 
interests involved.
    There is the interest of the birth moms. For many of these 
women this is the last decision they are going to get to make 
over their child. And they may have a conviction about having 
their child raised consistent with a particular religious faith 
or particular type of family.
    There is the interest of the child involved. There is the 
interest of the provider as well in ensuring that they have an 
open door to allow them in. So what we are focused on is 
ensuring that there is that process, that all of these 
balancing can occur between these interests, not guarantee any 
outcome, but just allowing them to have that opportunity.
    Mr. TAKANO. I understand that. But should any organization 
that takes Federal dollars, in this case an organization that 
is, you know, adoption agency. Should they be allowed to 
discriminate against people who are maybe LGBTQ or people who 
are non-believers?
    Mr. SHARP. And again, I would say two things. No. 1, part 
of RFRA is that it is a very fact-specific analysis. It is what 
Justice Chief Roberts--
    Mr. TAKANO. I understand you are referring to RFRA, but I 
am asking a very specific question. In principle, as a policy, 
should they be able to, after receiving Federal dollars, 
Federal taxpayer dollars, dollars that are intended for a 
certain need, should they be able to discriminate against any 
number of categories of people?
    Mr. SHARP. And again, I am going to go back, but RFRA is 
about balancing all those interests. And we have to ensure that 
the interest--
    Mr. TAKANO. I am not asking about RFRA right now, I am 
asking you simply should that be allowed to occur? Should we as 
a matter of policy from the Federal Government, allow anyone to 
receive Federal dollars and then have that entity go ahead and 
discriminate against American citizens or Americans?
    Mr. SHARP. I think we want to ensure that every religious 
organization--
    Mr. TAKANO. Mr. Sharp, I think the answer is very simple 
and you're dancing around it.
    Ms. Laser, can you answer that question?
    Ms. LASER. Here's the thing. So you can't have it both 
ways. If faith-based groups want to be eligible to receive 
government funding to perform government services, then they 
have to play by the same rules as everyone else. We have anti-
discrimination laws in place because those are shared secular 
American laws that we have passed. We have come together and 
democracy brings all of our different faith views together.
    When I worked for the Religious Action Center of Reformed 
Judaism, I brought a Jewish perspective to you all to argue for 
laws to become a certain way based on Jewish values. But the 
democracy process translates those values into shared American 
values. Values that we can all live under, that we can 
peacefully co-exist in such a diverse religiously pluralistic 
society that we are. Religion should not be used to carve out 
exceptions from where the government has committed to providing 
services to people in need.
    And the Establishment Clause makes clear that is not how 
religious freedom is intended, through a line of Supreme Court 
cases. So the answer is no.
    Mr. TAKANO. Mr. Chairman, my time has run out. I thank you 
for this hearing.
    Mr. SCOTT. Thank you. Gentleman from Kentucky, Mr. Guthrie.
    Mr. GUTHRIE. Thank you. Thank you all for being here today, 
I appreciate it very much.
    Mr. Sharp, constituents across my district come from 
various faith backgrounds. Can you expand on how the Religious 
Freedom Restoration Act does not favor a particular religion, 
and can you elaborate on how detrimental the Do No Harm Act 
would be to all individuals willing to express their religion?
    Mr. SHARP. Thank you for that question. The Religious 
Freedom Restoration Act was both enacted and has been used by a 
diverse array of religious groups. As I discussed earlier, from 
Muslims and Christians and Catholics to Rastafarians and Sikhs 
and Humanists, and so many others. It is continuing to be used 
by a very diverse group of individuals who all simply want to 
ensure that if a government regulation burdens their ability to 
live out their faith, and I do believe that every religious 
organization should be free to live consistent with their 
faith, that they have a process to go seek judicial relief.
    What the Do No Harm Act takes away that opportunity for 
relief. Shutting the doors of the courthouse to a lot of 
individuals or organizations if their claims fall out of 
disfavor, if their claims are now exempt under the Do No Harm.
    And I think it is very clear looking at the Do No Harm what 
it is meant to go after. It is meant to go after a lot of the 
unpopular outcomes recently, a lot of the unpopular things we 
see religious groups doing.
    But I think in a time like that RFRA is more urgent than 
necessary to ensure that the political whims don't dictate 
whether an individual or organization's faith is respected.
    Mr. GUTHRIE. Okay. Well a follow up on that. Without the 
Religious Freedom Restoration Act would faith-based groups need 
to ask for exemptions from every law or draft legislation that 
could unintentionally take away their freedom?
    Mr. SHARP. Yes. I think that is exactly one of the issues 
is imagine where a government regulation comes along and you 
have got a small congregation, a small group of believers, they 
don't have the power to go and request that. They don't have 
the lobby, they don't have the support to do that. And so what 
is going to happen is they are going to be steamrolled by this 
government regulation.
    What RFRA does is that if such a regulation passes and a 
powerless group finds themselves subject to it, they now have a 
safety valve, a way to go to court and say judge, this is 
violating our beliefs, these are our sincerely held religious 
beliefs. And the government can show up and explain why it has 
got a compelling interest. But it ensures that they have got a 
process for justice.
    Mr. GUTHRIE. Thank you very much. And that concludes my 
questions. I will yield the remaining of my time to the Ranking 
Member, to the Republican leader.
    Mrs. FOXX. I thank the gentleman from Kentucky for 
yielding.
    I have a question, Mr. Sharp, and I would like to make a 
couple of statements and then see if you agree or disagree.
    No. 1, I want to emphasize over and over again a very 
important statement you made. Disagreement is not 
discrimination. In our beliefs we disagree, but that does not 
mean we are discriminating. And in my opinion disagreeing 
doesn't mean I am imposing my beliefs on you.
    So I totally disagree with the statement that by 
disagreeing I am imposing my beliefs on someone else.
    Also it has been said we can't have it both ways. Well it 
seems to me the very act that created RFRA undermines that. 
Those people wanting to smoke peyote, the government said it is 
okay because it is part of their religious belief. So it seems 
to me the very thing that created RFRA has undone all these 
comments we have heard from others.
    But let me go back to my question. And if I have said 
anything wrong, please correct me. I was struck by the 
statistic in your testimony, courts rule in favor of the 
government in over 85 percent of RFRA cases.
    So the government wins 85 percent of the time. Does this 
suggest to you that RFRA is being used to make sweeping changes 
to society, or does it merely provide an opportunity to argue 
for a religious exemption in court in the most efficient way 
that we currently have?
    Mr. SHARP. The latter. RFRA is providing that opportunity 
to seek relief from government regulation. And as Chief Justice 
Robert's words, and I was sure were very apt, he said I trust 
the judiciary to be able to weed out the cases, to see when 
there is sincerely held religious beliefs that are being 
burdened and when there is frivolous claims. And I think what 
we are seeing is the judiciary is capable of doing that and is 
doing a great job while also simultaneously ensuring that when 
we do have regulations that truly infringe upon religious 
liberty, relief is available.
    Mrs. FOXX. Thank you. And I make one more comment. We have 
heard the word comprehensive health services used here. It is 
my understanding that Planned Parenthood is happy to encourage 
women to have abortions but never discuss with them that they 
can keep their child and put it up for adoption. That is not 
comprehensive.
    I yield back to the gentleman from Kentucky.
    Mr. SCOTT. The gentlelady from North Carolina, Dr. Adams.
    Ms. ADAMS. Thank you, Mr. Chairman and to the Ranking 
Member as well for convening today's hearing, and to the 
witnesses, thank you very much for your testimony.
    Many on this committee are too familiar with the alarming 
statistics on maternal mortality in this country. The problem 
is particularly alarming among black women who face maternal 
mortality rates that are three to four times higher than their 
white peers.
    And that is why my colleague, Congresswoman Underwood, and 
I founded the Black Maternal Health Caucus just a month or so 
ago to focus on this issue and on the disparities that we are 
seeing.
    Now given this focus, I am concerned that the Trump 
Administration's rulemaking which will allow health providers 
to deny care to pregnant women will only exacerbate the 
maternal mortality crisis that we are facing. Studies have 
shown that black women already receive lower quality obstetric 
care, and many experience maternity care deserts. Meaning they 
live in counties where access to maternity care services is 
limited or absent.
    Ms. Wilcher, how do you believe the Trump Administration's 
final rule on refusal of care will impact the ability of Black 
women to obtain quality medical care?
    Ms. WILCHER. Again, my focus is employment, but my view is 
that we are concerned about the implications of RFRA on a 
number of fronts, and concerned about the issues related to 
African American women and care. I mean just because we have 
been watching that.
    Ms. ADAMS. So ultimately how do you think the rule will 
impact the rate of maternal mortality among Black women?
    Ms. WILCHER. We are concerned about the rate of maternal 
mortality. And this Administration in many ways has done things 
that have had a deleterious impact on people of color, and 
particularly in the healthcare field. So I wouldn't be 
surprised.
    Ms. ADAMS. Okay. To follow up, in your opinion, do you 
believe that the rulemaking would delay emergency care for 
pregnant women who desperately need certain services or 
procedures or face a lost pregnancy or even their own death?
    Ms. WILCHER. Well rulemaking, it would have an impact in 
terms of delaying individuals receiving services, most 
definitely. And that has real human consequences.
    Ms. ADAMS. Thank you. I think it is important, Mr. 
Chairman, to note that the Trump Administration's rules do not 
protect anyone's freedom, as far as I am concerned. If 
anything, it takes away from freedom from the millions of women 
who need lifesaving care.
    The attacks on Title X and on the ACA's contraceptive 
mandate and on ACA's anti-discrimination protections are an 
attack on the civil rights of millions of Americans. That is 
just plain and simple. So if anything comes out of this 
hearing, let it be that message.
    So before I yield back, Mr. Chairman, I would like to 
submit for the record an article from the American Civil 
Liberties Union that tells the story of Tamisha Mayes, a 
Michigan resident who almost died when her local hospital 
turned her away after they refused to provide abortion 
services.
    And, Mr. Chairman, I will yield my time back to Ms. Hines. 
Ms. Hayes, I am sorry, I will yield my time to Ms. Hayes.
    Thank you.
    Mr. Chairman, can I submit for the record this article from 
the Deputy ACLU Reproductive Freedom Project.
    Mr. SCOTT. Without objection. The gentlelady from 
Connecticut.
    Ms. HAYES. Thank you, Mr. Chair. I just have a question 
really quickly for Mr. Sharp.
    Very briefly, do you believe that ensuring all children are 
provided with a loving and safe home is, as you put it, a 
draconian rule?
    Mr. SHARP. No, I believe providing every child with a 
secure and safe home is part of what motivates the importance 
of protections like RFRA to ensure that a diversity of 
providers feel free to go in without having to compromise their 
faith is the price of helping to serve these children.
    Ms. HAYES. Okay. Do you think that single mothers are unfit 
to provide a home to foster children?
    Mr. SHARP. I personally don't. But I also understand that 
there are many birth mothers who may wish for their child to be 
placed in the home of a mother and father, that is what they 
want best.
    There may be other considerations involved and we want to 
take all of those into the balance when we are looking at how 
RFRA applies and how these faith-based providers, birth moms 
and children, all of their interests should be protected.
    Ms. HAYES. Perfect. Thank you so much. I will come back 
during my line of questioning.
    Mr. SCOTT. The gentleman from Alabama, Mr. Byrne.
    Mr. BYRNE. Thank you, Mr. Chairman.
    Mr. Sharp, I am going to read you a few quotes regarding 
the Religious Freedom Restoration Act. First quote ``Without 
the Religious Freedom Restoration Act the fundamental religious 
rights of all Americans to worship as their consciences dictate 
will remain threatened.'' Any idea who said that?
    Mr. SHARP. I don't.
    Mr. BYRNE. That was Judiciary Chairman Jerry Nadler. Second 
quote ``The founders of our Nation, the American people today 
know, that religious freedom is no luxury but is a basic right 
of a free people. RFRA restores the First Amendment to its 
proper place as one of the cornerstones of our democracy. It is 
simple. It states that the government can infringe on religious 
practice only if there is a compelling interest and if the 
restriction is narrowly tailored to further that interest.'' 
Any idea who said that?
    Mr. SHARP. A person of great wisdom.
    Mr. BYRNE. Senate Minority Leader Chuck Schumer.
    Third quote ``After Employment Division v. Smith, more than 
50 cases were decided against religious claimants. Amish 
farmers were forced to affix garish warning signs to their 
buggies despite expert testimony that more modest silver 
reflector tape would be sufficient. Orthodox Jews were 
subjected to unnecessary autopsies in violation of their 
family's religious faith, and one Catholic teaching hospital 
lost its accreditation for refusing to provide abortion 
services. RFRA is an opportunity to correct these injustices.'' 
Any idea who said that?
    Mr. SHARP. No, sir.
    Mr. BYRNE. Majority Leader Steny Hoyer.
    Mr. Chairman, I ask unanimous consent to insert into the 
record a copy of the House floor Proceedings from passage of 
the Religious Freedom Restoration Act in 1993.
    You know, I wish my colleagues would actually go back and 
read the Congressional Record from--
    Mr. SCOTT. Without objection.
    Mr. BYRNE. Thank you, sir. Back then Republicans and 
Democrats alike were united in a belief that the fundamental 
right of the free exercise of religion was worthy of the 
highest level of judicial protection. Congress did not enact a 
guaranteed win for people of faith, but restored, as you said, 
a balancing test. The religious individuals or organizations 
exercise against the government's compelling interest in 
restricting that activity.
    As we have already heard today, the government's winning 
over 80 percent of the time. Yet the few wins for people of 
faith that they have gotten in recent years have really upset 
the majority.
    This hearing is entitled the Misapplication of the 
Religious Freedom Restoration Act, but it should be clear to 
all that RFRA is being applied exactly as it was intended. The 
difference is not the law, it is in my Democratic colleagues' 
point of view since 26 years ago.
    Frankly, this committee should question why we are even 
considering taking away the rights of citizens to freely 
practice their faith. This legislation does not live up to the 
ideals of our great Nation's Constitution. And we need to stand 
up for people of faith who are under attack in America today.
    There is a fundamental conflict in values in this country, 
and there is a determined minority, an intolerant minority, 
that would tell the majority in this country who are people of 
faith, you cannot exercise your faith because we find it 
repugnant in some way. Well that is not what the Constitution 
is about. That is not the reason this country was founded. This 
country was founded so we can all freely exercise our religion. 
It is not a secondary right.
    This bill, and I have tremendous respect for the sponsor of 
this bill. This bill, in essence, would make everybody's right 
to freely exercise their religion a secondary thing. Well to 
millions, tens of millions of Americans it is the primary 
source of their meaning in life. And they would take that away 
from them. For what? For a handful of cases that have gone the 
other way when 80 plus percent have gone the government's way?
    That is how fundamental the conflict and values in this 
country has become. And we in this Congress should stand up for 
the majority of Americans who have Judeo-Christian values and 
say you can continue to exercise your faith and we, the 
government, are not going to take that away from you.
    With that, Mr. Chairman, I yield back.
    Mr. SCOTT. Thank you. The gentlelady from Washington, Ms. 
Jayapal.
    Ms. JAYAPAL. Thank you, Mr. Chairman. I think we have to 
stand up for everyone's religious freedom, not just those with 
Judeo-Christian values.
    The right to religious freedom is the foundational value of 
the United States of America and it is enshrined in our 
Constitution. To ensure those freedoms are protected, the 
Religious Freedom Restoration Act, also known as RFRA, was 
introduced 25 years ago. And we have heard today through many 
of you that have testified, the concerns about the Trump 
Administration's cooptation of RFRA and the idea of religious 
liberty as a tool to threaten basic human rights of LBGTQ 
Americans, women, religious minorities, and other vulnerable 
communities.
    Religious exemptions should never be used to override those 
non-discrimination provisions in any venue, and certainly not 
in the area I want to focus on in my questioning, in the area 
of healthcare.
    And that's why the Affordable Care Act contained important 
provisions that protected people from discrimination on the 
basis of race and color and national origin, sex, age, or 
disability, as well as ensuring that employer-sponsored 
insurance plans would provide adequate contraceptive services 
with no cost sharing.
    I have to tell you I have watched in horror as I have seen 
the Republicans and Trump Administration strip away those exact 
healthcare protections, leaving millions of Americans 
vulnerable to discrimination or denial of access to critical 
healthcare services.
    And there has been an attack on American's healthcare by 
abusing RFRA as a basis to discriminate against women, for 
example, who are seeking access to reproductive health 
services.
    Recently I shared a very personal story, the first time I 
had ever done so in my life, to highlight why women have to be 
able to access the reproductive healthcare services they need. 
For me, making a deeply personal choice about abortion was a 
difficult enough choice on its own. I cannot imagine how much 
more difficult that choice would have been had I been denied 
care due to discrimination.
    So, Ms. Laser, I hope I said that right. Your testimony 
highlights how the recent rules in the Trump Administration are 
contributing to discrimination in healthcare, and particularly 
for access to reproductive health services.
    Can you please describe why access to reproductive health 
services is critical not only for women's health, but also for 
furthering women's equality?
    Ms. LASER. Thank you for that question. And thank you for 
your beautiful op ed on your own story about your own 
reproductive freedom needs. Really appreciate it.
    Sure. Contraception, I mean it sort of boggles my mind that 
we are in 2019 and still needing to talk about why 
contraception is important to women. When the Affordable Care 
Act passed, they actually delegated to the Institute of 
Medicine the decision about what is preventive healthcare and 
what is not. What is that important that it needs to be 
covered? And the Institute of Medicine said all forms of 
contraception need to be covered because that is preventive 
healthcare.
    Women use birth control for a variety of different reasons. 
One of them is medical. Lots of women, 30 percent, use 
contraception at least in part to manage a medical condition 
like endometriosis, ovarian cysts, chronic migraines, and 
menstrual disorders.
    Some women also have medical needs to use different forms 
of contraception. For example breast cancer runs in my family 
so contraception that is hormonal based isn't advised.
    There are very important social and economic status needs 
for women to be able to use birth control. And I am a huge fan 
of children, in fact, two of my children are sitting behind me 
today, right over here. They left. My husband is still here, 
but they left. That is terrible.
    But in any case, I have three children of my own. But it is 
very important to be able to plan when you have them so that 
you can stay in school, for example. There are studies that 
show that women are much more likely to find themselves in 
poverty if they have to drop out of school when they weren't 
planning to have a child.
    It enables women to be equal participants in society. They 
say that most women not using birth control would have 12 to 15 
children in the course of their lifetime.
    Ms. JAYAPAL. Let me ask you specifically about unintended 
consequences, or perhaps intended consequences of allowing 
employers not to provide contraception. You have spoken to the 
broad range of issues very well, and your children should be 
proud of you.
    But let us talk about employer plans for a second, and 
those unintended consequences.
    Ms. LASER. Sure. Unintended consequences?
    Ms. JAYAPAL. Or intended, however you want to take it.
    Ms. LASER. Well, lots of women, or transgender men who work 
for employers who are imposing their own religious views on 
women, despite what our shared American laws say, which is that 
all contraception has to be covered with no cost sharing, are 
suffering because they can't afford contraception.
    And that is what we have heard from the students at Notre 
Dame, at Irish for Reproductive Health. Some birth control can 
be very expensive. Like an IUD can cost $1,000 or $1,200 and 
can be really cost prohibitive. Women have to decide between 
child care and birth control, between putting food on the table 
and birth control. These are very dangerous decisions that 
women make because it can affect women's health, as we have 
discussed.
    When an employer just decides to impose his or her religion 
on the women in need who are working for them, despite what is 
promised by our shared American law and our best medical 
judgments from the Institute of Medicine, that is putting 
women's lives and health at risk. But also women's economic and 
social status.
    Ms. JAYAPAL. Thank you so much, I appreciate that. I see my 
time has expired. I yield back.
    Mr. SCOTT. Thank you. The gentleman from Indiana, Mr. 
Banks.
    Mr. BANKS. Thank you, Mr. Chairman.
    Today's legislation hearing show so many of us just how 
much times have changed. In 1993 RFRA passed both the House and 
the Senate with near unanimous bipartisan support. Then 
Representative Chuck Schumer was the lead sponsor in the House 
of Representatives while Senator Edward Kennedy carried the 
bill in the Senate where it received 97 votes.
    When President Clinton enthusiastically signed the bill 
into law he noted how a ``Broad coalition of Americans came 
together to make this bill a reality.''
    Mr. Chairman, the 1990's weren't exactly a time of 
bipartisan unity, yet despite the intense political debates 
that took place, Republicans and Democrats came together to 
protect the religious freedom of all Americans.
    Religious liberty remains the bedrock of the American 
experiment, and Republicans remain firmly in favor of RFRA 
protections. Unfortunately, my friends on the other side of the 
aisle are fighting tooth and nail to eliminate religious 
liberty and advance the radical pro-abortion agenda by rolling 
back common sense conscience protections.
    My first question is a simple yes or no question. And, Ms. 
Laser, I will start with you. Do you think doctors or nurses 
should be forced to participate in abortions, yes or no?
    Ms. LASER. That is a more complicated one.
    Mr. BANKS. That is what I thought you would say. Ms. 
Wilcher, do you think that doctors or nurses should be forced 
to participate in abortions?
    Ms. WILCHER. As my colleague said, it is complicated.
    Mr. BANKS. Reverend Hawkins. Do you think doctors or nurses 
should be forced to participate in abortions?
    Mr. HAWKINS. To be forced, again?
    Mr. BANKS. Should be forced to participate in abortions?
    Mr. HAWKINS. I don't think they should be forced.
    Mr. BANKS. Okay. Mr. Sharp, do you think doctors or nurses 
should be forced to participate in abortions?
    Mr. SHARP. No.
    Mr. BANKS. Thank you. Mr. Sharp, as you testified, Congress 
intended RFRA to serve as a balancing test, not picking winners 
or losers, but respecting the faith practices of all Americans. 
RFRA does not allow the Federal Government to burden religious 
practice unless it can prove that it has a really good reason 
or a compelling interest and that the government's purpose is 
accomplished with as little a burden as possible on the 
individual.
    This balancing test has been instrumental in numerous U.S. 
Supreme Court decisions. Take for example the Zubik v. Burwell 
decision where a unanimous court ordered that the government 
stop penalizing the Little Sisters of the Poor, an order of 
Catholic nuns, for choosing healthcare that meets their needs.
    Or the 9 to 0 U.S. Supreme Court decision Holt v. Hobbs 
case which permitted a Muslim inmate to have a half-inch beard.
    Mr. Sharp, do you think the Supreme Court was wrong in 
those decisions to uphold a religious liberty?
    Mr. SHARP. No, I think they did exactly what RFRA was 
designed to do, protect religious liberty, provide people of 
faith an opportunity to get relief.
    Mr. BANKS. Okay. And as a follow up to that, Mr. Sharp, who 
is best to define what the tenants of the Catholic faith are, 
the government or the Little Sisters of the Poor?
    Mr. SHARP. The Little Sisters of the Poor.
    Mr. BANKS. Go ahead and expand on that.
    Mr. SHARP. We should all be worried when the government has 
the authority to determine what a particular faith believes or 
whether certain beliefs are consistent with a faith.
    There has been numerous Supreme Court decisions on that 
exact issue. We want religious individuals who have a duty to 
the omnipotent being that they serve, to alone be responsible 
for determining what they are compelled to do, what they feel 
that their faith defines them. And what the government's role 
is to provide broad protections for that belief so that those 
individuals are not forced to do something that they believe 
violates those deeply held beliefs.
    Mr. BANKS. Okay. Thank you. With the time I have remaining 
I will yield it to Dr. Foxx.
    Mrs. FOXX. Thank you, Mr. Banks. Mr. Sharp, in August, 
2018, the Department of Labor's Office of Federal Contract 
Compliance Programs issued a directive to provide guidance to 
its staff and Federal contractors on enforcement and 
compliance.
    The directive summarized Supreme Court rulings that the 
government must permit individuals and organizations, with rare 
exceptions, to participate in government programs without 
having to disavow their religious character. Are you familiar 
with this directive, and did it accurately characterize the 
law?
    Mr. SHARP. Yes, I am. In fact it was motivated in part by 
one of ADS cases, Trinity Lutheran. It involved a pre-school 
program that wanted access to shredded tires, playground mulch 
so their little kids at the program don't skin their knee when 
they go down the slide. And despite checking all the boxes and 
satisfying all the requirements, they were denied from 
participating in that government program because they were 
religious.
    No religious contractor should be subject to the same 
thing. They should all have equal access.
    Mrs. FOXX. Thank you very much. I yield to the gentleman 
from Indiana.
    Mr. SCOTT. The gentleman from New York, Mr. Morelle.
    Mr. MORELLE. Thank you, Chairman Scott, for holding this 
important hearing today, and to all our witnesses for being 
here this morning.
    I want to pick up a little bit on what Ms. Jayapal's 
questions were about. I have had the privilege of serving on 
this committee since January of this year, and in those 6 
months my colleagues and I have sat in this room and heard from 
multiple witnesses who are expert on a number of issues related 
to healthcare. And they have allowed us to respond to the 
parade of ways that the Administration has attempted to 
undermine the Affordable Care Act and roll back protections for 
millions of Americans.
    In February we talked about the 102 million people who, 
prior to the ACA, had lifetime limits on their health plans. 
People, to pay for high cost medical conditions like cancers, 
out of pocket, should the Administration be successful in its 
attempts to repeal the Affordable Care Act.
    In April we held a hearing on short-term limited duration 
health insurance plans, a form of health coverage that is a 
poor substitute for comprehensive insurance.
    And today this discussion, the use of the Religious Freedom 
Restoration Act, which other people have opined on and 
described, to hack away at the stability of the ACA.
    I find this horrifying, but hardly surprising. Since 2017 
we have seen countless attempts and efforts to roll back our 
healthcare system on LGBTQ and patients in other marginalized 
communities. And I wanted to get some thoughts about this.
    In 2016 the Obama Administration finalized regulations to 
ensure that civil rights protections under Section 1557, the 
Affordable Care Act, applied to a wide range of entities that 
received Federal funding, including hospitals, insurance 
companies, government entities, and other organizations.
    Last month the Trump Administration proposed a rule which 
would entirely remove a definition for covered entity.
    Ms. Laser, can you share your assessment of the Trump 
Administration's decision to seemingly scale back the number of 
entities to which Section 1557 applies?
    Ms. LASER. Sure. So it is my understanding that the 
proposed rule would change who has to comply with 1557, and 
limits the number of insurance plans and the number of Federal 
health programs that have to comply.
    Which would drastically change the scope of existing non-
discrimination protections, further limiting access to 
healthcare. That would be the effect. Furthermore, under the 
proposed rule, religiously affiliated hospitals and insurance 
companies can exempt themselves from the sex discrimination 
requirements in this provision.
    So it is another regulation in the name of religion that is 
turning back rights and protections that the American people 
have decided to give to vulnerable communities.
    Mr. MORELLE. And while it is true that most of the 
conversation today, as I followed it, is really centered around 
reproductive rights. The truth is that you can use a religious 
exemption to anything that you ultimatly decide, even though it 
discriminates against someone, might apply to your religious 
freedoms. I mean, you know, new religions can pop up and you 
could have all kinds of things relative to healthcare that a 
religious group would find objectionable too. And there are 
some religions that object to medical care entirely.
    So certainly while we have talked about reproductive 
rights, understandably and necessarily, it is certainly not 
limited to that.
    I wanted to just get, again, Ms. Laser, from you, your 
thoughts on this. In January of last year the Trump 
Administration created a new Conscience and Religious Freedom 
Division within the Office of Civil Rights at HHS. I am just 
wondering, are you aware of any initiatives the Division has 
undertaken over the past year that have improved access to 
healthcare for marginalized communities?
    Ms. LASER. I am aware of none. In fact quite the contrary. 
It is my understanding that this is the Division behind the 
Denial of Care Rule that I spoke about earlier which would 
decrease instead of increase access to healthcare for 
marginalized communities.
    Mr. MORELLE. And in your opinion was the Division necessary 
to protect the so-called rights of healthcare workers?
    Ms. LASER. No, because those rights were already being 
protected by the Office of Civil Rights at HHS even before 
that. HHS has successfully protected those interests, as 
defined by Congress, and, nope, that was being taken care of.
    Mr. MORELLE. Very good. Thank you. Mr. Chair, I yield back 
my time.
    Mr. SCOTT. The gentleman from Texas, Mr. Taylor.
    Mr. TAYLOR. Thank you, Mr. Chairman. I appreciate this 
hearing, appreciate the witnesses.
    Just a quick question. Should a parent, does the parent 
have the right to raise their child in their faith? Does a 
parent have that right? I mean does a Muslim parent have a 
right to raise their child as a Muslim, a Christian parent as a 
Christian, a Jewish parent as a Jew. I mean does that seem 
reasonable to you? Yes or no question, does that seem 
reasonable to you?
    Ms. LASER. Absolutely.
    Mr. TAYLOR. Does that seem reasonable to you? Just going 
down the line here.
    Ms. WILCHER. Yes.
    Mr. SHARP. Yes.
    Mr. TAYLOR. Does that seem reasonable to you?
    Mr. HAWKINS. Yes, as long as that faith does not impact 
others negatively.
    Mr. TAYLOR. All right. Okay. So in that vein I think we 
begin that fundamental parental right for faith, you know, it 
seems reasonable that, you know, a Catholic parent who is 
giving their child up for adoption could say I want my child to 
be raised as a Catholic once they are adopted.
    I think if we are going to begin with that fundamental 
right of a parent's decision about faith, that faith should 
extend even if they give the child up for adoption.
    And I think that applies for, and I happen to represent a 
very diverse community. I live right next to the largest 
Synagogue in Collen County. We actually have the largest Mosque 
in North Texas in my district. I have a very large Hindu 
community in Frisco, Texas. And, you know, I want to defend all 
their faiths. I want to defend those parents' ability if they 
decide that they don't think that they can raise a child and 
they want that child to be adopted, that they should be able to 
choose a faith-based organization to raise their child in the 
faith of their choice.
    And I think that RFRA is something that defends that, 
defends the very basic premise that we all agree with here, 
right? We all agree that a parent should choose the faith of 
their child.
    And so when we think about in Texas, you know, I have a 100 
percent meeting policy, I meet with all my constituents, I have 
had 250 meetings so far in the last 6 months, been pretty busy. 
But, you know, in those meetings I have actually had the 
opportunity to meet with community leaders who are working on 
foster care. And they tell me that while we have lots of beds 
in Collin County, other communities are using those beds, you 
know, for foster care. And so it is so important to have as 
many possible foster care opportunities as possible. So having 
religious based foster care organizations increases the 
opportunities. More beds, it is better for the children.
    And so, Mr. Sharp, can you just speak to that? I mean like 
the need for having foster care and for people to be able to 
make religious choices about their children, even if they are 
not raising their children?
    Mr. SHARP. Absolutely. And I think that highlights the 
importance of RFRA and the harm of Do No Harm.
    When you have a birth mom that reaches out and says I would 
like my child to be raised consistent with this faith, an 
adoption provider that tries to honor that quest, under Do No 
Harm, could now find themselves facing government restriction 
and punishment for trying to honor the interest and request of 
that birth mom.
    But under RFRA that faith-based provider has the 
opportunity to go into court and say we are representing the 
interest of the birth mom, wanting to protect that parental 
right interest and ensure that her wishes are respected.
    And so they get that opportunity to go into court and make 
that case. And that's so important.
    Mr. TAYLOR. I appreciate that. I think RFRA really does 
protect all faith communities. And again, I have the privilege 
of representing a very diverse community with many faith 
communities. And as I talk to the people that care about 
children, that this is an extremely important fundamental piece 
of statute. Certainly in Texas we have worked to preserve the 
abilities so that we have as many choices as possible for 
parents, whatever their faith may be, to protect a right that I 
am glad to see we all agree that parents should be able to 
choose the faith of their child.
    I yield the balance of my time to the Ranking Member.
    Mrs. FOXX. I thank the gentleman from Texas.
    Mr. Sharp, when he signed RFRA into law, President Clinton 
said the government ``Should be held to a very high level of 
proof before it interferes with someone's exercise of 
religion.''
    Do you think President Clinton described the appropriate 
legal standard in free exercise cases?
    Mr. SHARP. Thank you. And I do. We look at freedom of 
speech, free exercise of a religion, freedom of the press, many 
of these others that are these bedrock Constitutional 
principles that our courts have long said when the government 
tries to restrict those it better have a really good reason to 
do so. Employment Division v. Smith undercut that specifically 
for religion, and RFRA restores it.
    And so I agree with President Clinton. This is respecting 
the proper place that religion holds in our Constitutional 
system.
    Mrs. FOXX. And just for the sake of it, we are midway into 
this hearing, I am going to quote again the first part of the 
First Amendment to the Constitution. ``Congress shall make no 
law respecting an establishment of religion, or prohibiting the 
free exercise thereof.''
    That last part is often left out when people talk about our 
rights, and I think it is important to emphasize it.
    I yield back to the gentleman from Texas, Mr. Chairman.
    Mr. TAYLOR. Yield back.
    Mr. SCOTT. Thank you. Gentlelady from Pennsylvania, Ms. 
Wild.
    Ms. WILD. Thank you, Mr. Chairman. Ms. Laser, I feel your 
pain. My two young adult children were so scarce on the 
campaign trail that some people didn't believe I had kids.
    Moving on, I am dismayed that the questions and the answers 
on this very important subject seem to be falling along party 
lines. This is an issue that I don't believe should be 
partisan.
    A separation of church and State is enshrined in our 
Constitution. Sadly, I often feel that my colleagues on the 
other side of the aisle only have respect for one of the 
Amendments in the Bill of Rights, and perhaps only part of that 
Amendment.
    In any event, RFRA's restored the use of strict scrutiny as 
the standard to be employed by the courts in reviewing actions 
that may infringe on the free exercise of religion. And for the 
non-lawyers in the room, strict scrutiny means that the 
government must have a compelling government interest before 
imposing a substantial burden on religious exercise or in 
allowing the intrusion of religion in government matters.
    So moving on to the Affordable Care Act, which is lawfully 
the law of this land, and was lawfully passed. Section 2713 of 
the ACA requires individual and employer-provided health plans 
to cover certain key preventive services, including all forms 
of FDA approved contraceptive methods, along with prenatal 
care, counseling for sexually transmitted infections, and 
screening for domestic violence.
    In implementing this requirement the Obama Administration 
provided a very narrow exemption to accommodate certain 
religious non-profit employers, such as churches, that objected 
to contraception coverage.
    But in October of 2017 the current Administration 
promulgated two interim final rules that allow virtually any 
employer or institution of higher education to circumvent the 
contraceptive coverage requirement entirely.
    And then we have Hobby Lobby v. Burwell in which the 
plaintiffs, Hobby Lobby, a closely held for-profit corporation, 
whose owners opposed contraception based on their religious 
beliefs, successfully argued that they should be exempted from 
the ACA and its regulations requiring coverage of contraceptive 
care. I stress to you, it is a corporation, not a 501C3 
religious institution.
    So my first question, and just a show of the hands here, is 
there any one of you who disagrees that a corporation is 
separate and distinct from its individual owners, officers, and 
board of directors? Is there anyone that disagrees with that 
concept?
    Okay, seeing none, is there anyone that disagrees that a 
business like Hobby Lobby aims to make a profit? You disagree 
with that, Mr. Sharp. So noted for the record.
    Do any of you, and specifically you, Mr. Sharp, do you know 
what is on Hobby Lobby's website?
    Mr. SHARP. I believe when you look at Hobby Lobby--
    Ms. WILD. No, my question is do you know what is on their 
website?
    Mr. SHARP. I don't know everything on their website, but I 
know their devout belief in God is.
    Ms. WILD. Well let me tell you what is on their website 
because I looked at it. It includes a link to shop departments 
for crafts and hobbies. It has coupons for tabletop decor, 
summer toys, yarn, furniture, and wearable art. There is 
nothing on Hobby Lobby's website that promotes the owner's 
preferred religion.
    Despite the fact that you all agree that a corporation 
should be treated separately from the individual owners, and 
despite the fact that Hobby Lobby is in business to make money, 
and its own website makes no reference to its owner's religious 
beliefs, we allow that company's owners to dictate their 
religious beliefs upon their employees by denying contraceptive 
coverage to those employees. So what does that mean for its 
employees who are of child-bearing age?
    Any one of you care to answer that one?
    It means they can't get contraceptive coverage, right? 
Other than seeking alternative employment.
    It wasn't the Federal Government that was restricting Hobby 
Lobby's religious freedom. Hobby Lobby isn't even a 501C3 place 
of worship. It was really the owners of Hobby Lobby that were 
trying to avoid compliance with the ACA.
    So let me ask you this, Mr. Sharp. Would you allow a 
restaurant owner to forbid African Americans from sitting at 
the lunch counter to avoid desegregation laws?
    Mr. SHARP. No. RFRA has never been used that way, and if 
anyone attempted to, they would lose because the government has 
a compelling interest in eradicating discrimination based on 
race.
    Ms. WILD. That is your opinion. Thank you.
    I yield back.
    Mr. SCOTT. Thank you. Gentlelady's time has expired. The 
gentleman from Pennsylvania, Mr. Smucker.
    Mr. SMUCKER. Thank you, Mr. Chairman. Like the previous 
questioner, I come from Pennsylvania, which really was seen as 
an example of religious liberty of all the colonies originally. 
In fact the founders who came to Philadelphia for the 
Constitutional Convention marveled at the diversity of religion 
across the city, and in what was unusual at that time, you had 
strong Catholic congregations, Jewish and Protestant, all 
operating freely and as they chose.
    It is still true today in the community that I represent, 
Lancaster and York County, Pennsylvania where we have people of 
all faiths practicing their religion in the way that they 
choose, and doing good for the community. And so we have strong 
Catholic presence with Catholic charities doing a lot of good, 
every denomination doing good. We have a strong Muslim 
community who have specific an organization that is dedicated 
to building bridges between various religions and dispelling 
some of the fallacies that folks hold about various religions.
    I am very, very proud of that. And when my colleague 
mentioned separation of church and State, it was never intended 
that we would not be a religious society. It was intended to 
ensure that government did not impede, did not restrict an 
individual's ability to practice their faith in a way that they 
chose.
    Lancaster County, Pennsylvania is home to one of the 
largest Amish populations in the United States. In fact my own 
roots are Amish as well. And that particular community came 
there because they were looking to escape persecution. 
Protecting faith, protecting their faith as a fundamental 
right, protecting the faith of other groups as a fundamental 
right, is a value that our Nation has preserved for more than 
400 years. And it is one that has allowed the Amish to live 
independently and maintain their strong core values.
    The Religious Freedom Restoration Act has provided more 
protections for the Amish by ensuring that they don't have to 
lobby for statutory exemptions to protect their religious 
freedom with each new law that is passed. And of course, as I 
mentioned, they are not the only religious community that have 
woven threads in the district that I serve, there are many, 
many diverse religions.
    Despite the bipartisan historical support for RFRA, the 
legislation we are speaking about today will continue down a 
path that my colleagues on the other side of the aisle have 
chartered to erode the rights that are protected by RFRA.
    We have seen this in the form of Federal mandates that 
would force individuals with strong religious convictions to 
violate their moral beliefs, such as these coverage mandates 
for abortion. Or restrictions on parochial schools, and we have 
a strong community of parochial schools, where parents are 
choosing to send their child to a school specifically because 
they want to see them raised up in their particular religious 
belief.
    The Amish, for instance, has a lot of one-room schools. And 
potentially under this proposed law, they would need to hire a 
teacher who is not Amish, who may be of an entirely different 
faith.
    Time and time again, the Supreme Court has ruled that 
attempts to limit religious expression are unconstitutional. In 
fact I believe it was just 5 days ago the Supreme Court ruled 
that the 100 year old Bladensburg's Memorial Cross is 
Constitutionally protected.
    So I do have a question, Mr. Sharp. I mentioned the Amish 
community I represent and explained how important RFRA has been 
for them. If the Do No Harm Act were to be passed into law, 
would the Amish community and other faith-based groups that I 
represent need to ask for more exemptions in every proposed 
piece of legislation that would potentially limit their 
religious rights?
    Mr. SHARP. Very likely so. And being small groups like that 
they may not have political power, they may not get them. And 
that is why we need RFRA, to ensure those religious minorities 
have the opportunity to get relief.
    Mr. SMUCKER. Thank you.
    Mr. SCOTT. The gentleman's time has expired. The gentlelady 
from Washington, Dr. Schrier.
    Dr. SCHRIER. Thank you, Mr. Chair. It has been really 
interesting to listen to this conversation. Thank you, 
witnesses, for your testimonies.
    I thought I would speak up as the only woman doctor in 
Congress, because a lot of this really is revolving around 
women's health, and I would like to make a couple of points.
    And I thought I would start, my colleague from Indiana 
asked a question of all of you about whether a doctor or a 
nurse should be forced to perform an abortion. And a few of you 
said it depends and it is a complicated question. One of you 
said absolutely not, should not be forced to.
    And so I wanted to just delve into this a little bit 
because it is complicated, and I think that my colleagues don't 
really understand that. That in, let's see here, in 45 
communities in our country, the only hospital available is a 
Catholic hospital. The treatment for an ectopic pregnancy, 
which is a pregnancy where the embryo implants in the fallopian 
tubes, totally non-viable, threatens the life of the mother. 
The standard treatment is a chemical abortion followed by 
removal of the embryo or fetus, depending on what state it is 
at, typically embryo.
    And so when you ask that question about whether somebody 
should be forced to, what you are really talking about is a 
woman, maybe Catholic, maybe not, who goes to a Catholic 
hospital where the policy of those who run the hospital is that 
no abortions happen for any reason until the mother's life is 
threatened. And despite all standard medical care, accepted and 
taught in all medical schools throughout this country, and 
residency programs, that women could get transported to a 
hospital where they would not perform that, where instead they 
would wait for her to bleed out, to risk her life, before they 
would do what is a medically acceptable procedure, which is an 
abortion.
    So I want to be really clear that is not a chuckle worthy 
question or answer. This is a very real question that threatens 
women's lives. And I also just wanted to be really clear on 
this, that there is a difference between a woman of any faith 
who goes to a Catholic hospital seeking care, and that might be 
the only hospital in her area, versus a Catholic woman who goes 
to the hospital and chooses for her own care because of her own 
religious preferences, to take that risk and to wait until she 
might be at death's door.
    So here are a couple questions. First, Ms. Laser, would you 
like to comment about any of this, and your take about how this 
relates to women's healthcare, and that this is not about a 20-
year-old seeking an elective abortion and having a doctor 
forced to perform that. This is about a real medical procedure 
that could be lifesaving. So I did not want to blur any lines 
there.
    Ms. LASER. I actually appreciate the opportunity to say 
more than one word, even though I said a couple.
    You know, I said it is complicated, and I don't think it is 
complicated where a woman's life is in danger. You know, then I 
think a doctor has a duty to do what needs to be done for the 
sake of the woman's life. Period.
    And I think that what we are witnessing today is an attack 
on women's reproductive freedom really, in pursuit of what 
feels like it is a political agenda. And there are gaping new 
religious exemptions that are being created not just with 
regard to abortion, but with regard even to contraception. Like 
we talked about, with the final rules that would allow 
individual employers and universities to deny huge numbers of 
women access. So I think we are sort of living in an 
unbelievable moment for 2019 when it comes to women's health, 
regrettably.
    Dr. SCHRIER. Thank you. And then, Mr. Sharp, are you in a 
position where you might reconsider your answer about absolutes 
in this case?
    Mr. SHARP. Well thank you. And on one hand I think we can 
all agree that the government has a very compelling interest in 
protecting life. But I also, like my colleague, recognize that 
these are complicated cases sometimes. And what RFRA does is 
not pick the winners and losers. That is not what we are trying 
to advocate for. But rather to provide a process so that 
important interest in life can also be weighed against the 
doctor's concerns about doing something that violates their 
faith. Not picking winners or losers, but just the process for 
that to be discussed and considered in these complicated 
issues.
    Dr. SCHRIER. I believe Ms. Laser has a comment.
    Ms. LASER. I think what is really being left out though is 
that the way the Trump Administration is issuing regulations, 
they are putting their finger on the scale on one side. So RFRA 
does have a balancing test, and frankly, I just want to 
emphasize that the Do No Harm Act doesn't change that. RFRA 
isn't going away. I just think it is very important that we 
understand that, if you pass the Do No Harm Act. So I think 
when the government issues regulations that says any healthcare 
provider, anyone associated with the health system can refuse 
care, and any boss can refuse birth control, that is deciding, 
that is not balancing. Thank you.
    Dr. SCHRIER. I would agree that is going back to the 
handmaid's tale. I have run out of time. And I wanted to thank 
you all for your help.
    Mr. SCOTT. Thank you. Gentleman from Wisconsin, Mr. 
Grothman.
    Mr. GROTHMAN. Sure. I guess I will start with Mr. Sharp. We 
are going to get a little bit beyond the statute we are 
discussing today.
    I think America was founded, or at least John Adams said it 
was for moral and religious people. And I think the question is 
whether the government in any cases is hostile to a moral and 
religious people. Do you think America should always abide by 
those standards?
    Mr. SHARP. I agree that the government should not be 
demonstrating hostility toward any person of faith, whatever 
their beliefs may be. And that is why we have RFRA, First 
Amendment, and so many other protections.
    Mr. GROTHMAN. A wide variety of things. And I realize many 
wonderful people have many different ideas on, you know, how to 
handle things.
    Right now in our country there are a variety of programs, 
Medicaid, food stamps, low income housing, TANIF, Bell grants, 
a variety of other things, in which you are eligible for these 
programs if you do not get married, but you lose benefit of 
these programs if you do get married. Is that accurate?
    Mr. SHARP. I am not familiar on all the details, but I do 
know there are conditions on a lot of Federal programs.
    Mr. GROTHMAN. Quite right, given the definition of poverty. 
Does that bother you, or does it bother anybody else up here 
that in making a decision whether to get married or not, the 
government weighs in substantially in favor of the decision not 
to get married if you have children. Does that bother anyone of 
the four of you? Doesn't bother you?
    Ms. LASER. I don't agree with that characterization about 
the government favoring single people. But I have absolutely no 
problem with the government deciding to treat unmarried people 
equally.
    Mr. GROTHMAN. I mean the point is it is not equal. Does 
that bother any of you? No? Okay. Doesn't bother you, Mr. 
Sharp?
    Mr. SHARP. No. I mean I apologize, I mean I may not have 
fully understood this question, but I do think we can all agree 
that the government ought to be treating people equally. And 
that is why when a lot of these programs, especially when it 
involves questions of religious faith, that religious are not 
discriminated against.
    Mr. GROTHMAN. I think probably the most important thing 
most people do in their life is raise children. Right now the 
Federal Government has a program providing free contraceptives 
to people, I can't remember if it is 15 or 14 years old. I 
think it is 14, might be 15. As I understand it, the way the 
program works, the parents do not know if the government is 
weighing in and providing contraception to people, I guess 
usually girls, that young.
    Does that bother you? Do you feel that is stepping on the 
way maybe some parents, their values? Does that bother you?
    Mr. SHARP. I am a strong advocate for parental rights and 
for making sure that parents are part of that process of making 
decisions for their child, with their child, discussing these 
issues and coming to resolutions. So we want to ensure that 
parents are always part of that process.
    Mr. GROTHMAN. Okay. Others bothered by that? Not bothered, 
don't care?
    Ms. LASER. I am not bothered because most young people go 
to their parents when they have contraceptive needs, and when 
they don't it is sometimes because they are in cases of incest 
or other dire situations where it is better that they be using 
birth control than not.
    Mr. GROTHMAN. A lot of times when a 15-year-old is engaged 
in that behavior it is incest? I don't know, maybe it is true.
    One other comment here. Before it was talked about, I guess 
they are talking about Hobby Lobby as a for-profit corporation. 
And the implication is that for-profit was kind of ugly or bad. 
And I just will point out, in my personal experience us 
Congressmen making $175,00 a year, I think we make more profit 
than most people working in for-profit institutions. Just point 
that out, it is not the end of the world, you know. A lot of 
people found for-profit businesses and they don't make as much 
money as we do, and it is not something to denigrate if people 
decide to start their own business.
    And I yield the remainder of my time back to the Ranking 
Member.
    Mrs. FOXX. Thank you, Mr. Grothman. I would like to point 
out that on the Hobby Lobby website, on the page About Us, it 
says ``We are committed to honoring the Lord in all we do by 
operating the company in a manner consistent with biblical 
principles.'' So my colleague must not have gone very far in 
looking at the Hobby Lobby website.
    And, Mr. Chairman, I would like to put the About Us page in 
the record.
    Mr. SCOTT. Without objection.
    Mrs. FOXX. Thank you. I yield back to the gentleman from 
Wisconsin.
    Mr. GROTHMAN. Mr. Chairman, I think my time is up.
    Mr. SCOTT. Thank you. The gentlelady from Connecticut, Ms. 
Hayes.
    Ms. HAYES. Thank you, Mr. Chair. I guess I will just start 
with the Hobby Lobby question that we were just talking about 
and correct the record for Mr. Sharp, that RFRA has been used.
    In Bob Jones University v. United States, the University 
sought to use religion to justify its racially discriminatory 
admission policies. So it has been used before.
    Thank you to all the witnesses for being here. The subject 
of this hearing is extremely personal for me. I wear a cross 
around my neck every day because my faith is what grounds me. I 
am first a Christian and second a Congresswoman.
    There have been times when advisors or consultants have 
suggested that I remove my cross for fear that it would 
communicate intolerance or bigotry as inherent to my Christian 
values. I have refused. I continue to refuse. Because I know 
the good that religion brings to me, to my community, through 
spirit and service. I refuse because I know that my duties as a 
Christian are not only to preserve and spread the gospel, but 
to feed the hungry, clothe the naked, and be of a good steward 
of my community.
    Wearing this cross does not ever give me the right to 
impose my beliefs upon others or to discriminate upon immutable 
characteristics. While I want others to respect my right to 
religious freedom, I hope that my cross shows them my 
willingness, not my intolerance, to protect the right of 
everyone to practice their religion or no religion at all. That 
is what our Founding Fathers said, that is what this country 
was founded upon. Let us not conflate the two.
    We heard a lot about quotes from previous legislators, but 
as we all know, democracy is meant to evolve. And many of the 
things that those people voted for years ago never even made it 
to the floor, which is why we have new members, new Congresses, 
and we continue to evaluate our role in our communities. We 
have passed legislation in this Congress that would have never 
even been considered 20 years ago.
    Today, so again, let us not conflate the two. Today we have 
heard what happens when RFRA is abused. We see blatant 
transphobia, discriminatory thinking, and polarizing 
intolerance. This does not reflect the God I serve.
    I am struck by Mr. Sharp's previous answers to my question 
and his comments in support of Miracle Hill or New Hope Family 
Services, facilities that maintain that children thrive best in 
homes with married couples, with mothers and fathers. This is 
an incredibly regressive and insulting comment. Especially 
after having raised my own daughter as a single mom. She 
thrived. And this was after I received counsel from Planned 
Parenthood on my options and decided to keep her. She thrived, 
she is a married professional educator with a graduate degree, 
a homeowner, a conscientious and productive member of society. 
She, too, has values, and I am so incredibly proud of her.
    Miracle Hill openly discriminates against foster parents 
based on their religion. In fact, they only place children in 
born-again Christian homes, which agree with their statement in 
support of their doctrine. I remind you this does not reflect 
the God I serve.
    Reverend Hawkins, as a faith leader, is it not a moral 
issue to keep children that are eligible for adoption in the 
system rather than in permanent loving homes? Should faith ever 
come before a child's welfare?
    Mr. HAWKINS. No, faith should never come before a child's 
welfare. And I have really got to add that I think there is 
some misunderstanding about what faith is all about.
    Faith is not something you arrive and you have all of the 
answers. Faith evolves, the word that you used. Faith continues 
to allow itself to be challenged. Faith, and especially 
following the teachings of Jesus Christ as found in the 
gospels. We are called to love the Lord our God, to love our 
neighbor as we love ourselves.
    So, no, faith should never prevent a child from being 
adopted in a loving home.
    Ms. HAYES. Thank you. In Connecticut, 5 percent of children 
in the child welfare system aged out without ever finding a 
forever home. We know that same-sex couples are significantly 
more likely than different sex couples to be raising adopted or 
foster children. One in five same-sex couples are raising 
adopted children, compared to just 3 percent of different sex 
couples. And 2.9 percent of same-sex couples have foster 
children, compared to .4 percent of different sex couples.
    Additionally, we know that LGBTQ plus youth are over 
represented in the foster care system. Many enter into child 
welfare system after experiencing familial rejection of their 
gender identity.
    So this is not a question, but I will just leave it to you 
for consideration, Mr. Sharp. What would you tell a child who 
could be heading into a loving home, but is being denied that 
chance because the home has two moms, a single dad, or that 
they practice Judaism or Christianity? I just want you to think 
about that.
    And one other thing to think about when we talk about 
people being forced to do something. If a group of firefighters 
show up at the Stonewall Inn and it is burning down, they can't 
choose not to put that fire out.
    Thank you, Mr. Chair, I yield back.
    Mr. SCOTT. Thank you. The gentleman from Idaho, Mr. 
Fulcher.
    Mr. FULCHER. Thank you, Mr. Chairman. At least a couple of 
my colleagues from Tennessee and Indiana brought up the 
difficult question about whether or not it could be possible 
that a physician would be mandated to perform an abortion if 
that was against their belief system.
    And most of the panel struggled with that. And it appears 
clear to me that indeed would be a possibility if the Do No 
Harm Act were passed.
    Mr. Sharp, are you aware of any case or cases where the 
application or enforcement of the law under the Religious 
Freedom Act, where there's been the result of the taking of a 
human life?
    Mr. SHARP. Not that I am aware of.
    Mr. FULCHER. So it has also been said that the application 
of the Religious Freedom Act is just simply not tolerant 
enough. As I consider the cases that have been rendered under 
the Religious Freedom Act, the situation with the baker out of 
Colorado, didn't provide a cake under circumstances that 
violated his beliefs. The other one that has been talked about 
a lot here today, Hobby Lobby being able to decide what 
employee healthcare they are to pay for and what those services 
might look like.
    It strikes me that in those cases the relationships 
involved were voluntary, the baker and those who approached 
that individual had options. The employees that work with Hobby 
Lobby have options. There's more than one employer out there.
    And I will go back to you, Mr. Sharp. Doesn't that at least 
provide an example that the law and the application of that law 
under the current Religious Freedom Act is indeed tolerant, and 
that the law under RFRA is respectful of the First Amendment 
and of people of all or no beliefs.
    Mr. SHARP. That's exactly right. I go back to a point I 
said earlier. Disagreement is not discrimination. And a 
pluralistic society means that a Colorado baker has the freedom 
to do, along with the countless other bakers that were more 
than happy to design a cake for a same-sex wedding. We can 
protect both, and that is part of what RFRA does, is regardless 
of a person's beliefs, they have that process where they can go 
and have their beliefs protected against government intrusion.
    Mr. FULCHER. Thank you, Mr. Sharp. And certainly in my 
opinion the existing law under the Religious Freedom Act needs 
to stand just as it is.
    I yield my remaining time to the Republican leader.
    Mrs. FOXX. I thank the gentleman from Idaho for yielding, 
and I want to agree with him very, very strongly that RFRA 
protects peoples' religious freedom.
    But it is really clear to me today in this hearing, and I 
think it is the very reason why we must make sure that this 
bill never passes, is that many of our colleagues would impose 
their beliefs on others if RFRA were changed. And that is 
really troubling to me. Again I want to say what Mr. Sharp has 
said, disagreement is not discrimination.
    Mr. Sharp, the absence of RFRA, the Free Exercise Clause of 
the First Amendment would remain in effect, thankfully. Why is 
it important nonetheless to keep RFRA on the books in its 
current form?
    Mr. SHARP. Thank you. And I think we need to remember what 
RFRA does specifically relates to that Free Exercise Clause. It 
is the court's decision in Employment Division v. Smith rolled 
back that strong protection for religious liberty and it left 
this gap of protection. And so Congress unanimously, 
bipartisanly came together and said we want to restore that 
proper understanding and respect for religion, insert that 
balancing test and that compelling interest test once again.
    Mrs. FOXX. Thank you, Mr. Chairman. I say again also, RFRA 
is not about denying healthcare to women. RFRA is about 
protecting the First Amendment and our right to the free 
exercise of religion.
    I yield back.
    Mr. SCOTT. Thank you.
    Mr. FULCHER. I yield back.
    Mr. SCOTT. Thank you. The gentleman from Michigan, Mr. 
Levin.
    Mr. LEVIN. Thank you so much, Mr. Chairman. And thank you 
for holding a hearing on such a critical issue that impacts so 
many Americans' work lives and home lives.
    Mr. Sharp, in your written testimony you claim that RFRA is 
hardly ever asserted by a for-profit business, only three 
Federal cases were brought by for-profit businesses. If I have 
that right.
    This seems like an effort to downplay the impact of 
discrimination by for-profit corporations. And I would like to 
take a minute to set the record straight about this issue.
    Is one of those three cases you are referring to in your 
testimony the Hobby Lobby case?
    Mr. SHARP. Thank you for that question.
    Mr. LEVIN. Is it, yes or no, I don't have a lot of time.
    Mr. SHARP. Yes, based on what I already discussed.
    Mr. LEVIN. Right. So in that case the Supreme Court held 
that closely held for-profit employers could use religion as a 
justification for excluding certain forms of birth control from 
their employees' health insurance.
    Now it may be true that this was just one case, but it is 
the Supreme Court after all. And I think it is important to dig 
a little deeper to fully understand its impact.
    Mr. Sharp, are you aware of how many corporations are 
closely held in this country?
    Mr. SHARP. I don't know the exact number but I know there 
is quite a few of them.
    Mr. LEVIN. Yes. So according to the IRS, as many as 90 
percent of businesses in this country are closely held. And 
these are not just small businesses. They include organizations 
like Hobby Lobby itself, which has 32,000 employees, Coke 
Industries, which has 120,000 employees.
    Mr. Sharp, are you aware of what percentage of Americans 
work for closely held corporations?
    Mr. SHARP. Again, I don't know the exact number, but I 
imagine it is a high number.
    Mr. LEVIN. Yes. According to the U.S. Chamber of Commerce, 
more than half of private sector workers are employed by a 
closely held corporation. So I think it is deeply misleading to 
downplay the impact of these cases because, as we saw with 
Hobby Lobby, one case can impact the lives of tens of millions 
of people.
    I want to turn to you, Ms. Wilcher, and ask you a different 
kind of a question. Directive 2018-03 supersedes current 
guidance and protocols of OFCCP, particularly regarding sexual 
orientation and gender identity. Based on your nearly 7 years 
at OFCCP, can you comment on the impact of Directive 2018-03, 
in particular what impact it will have on civil rights 
enforcement in general?
    Ms. WILCHER. Well first of all, thank you for the question. 
It will have substantial impact depending on how, again, it is 
interpreted and enforced by the solicitor of labor, as well as 
the director. It has potential for having a lot of impact.
    Particularly with the amendment that added gender identity 
and sexual orientation, which was to protect that LGBT 
community. This sort of sets back the clock, or it sets it 
back. And so it undermines the attempt to change 11246 to 
protect that community.
    Mr. LEVIN. And are these recent actions of this 
Administration regarding enforcement of religious freedom and 
other civil rights in line with previous administrations? You 
have a lot of experience on this.
    Ms. WILCHER. Not to my recollection, no. I mean I think I 
would have to do more study, but frankly, in my experience the 
answer is no.
    Mr. LEVIN. And are we going in the direction of expanding 
the civil rights of LGBTQ Americans and others with the Trump 
Administration's directives at work and, you know, in all these 
different areas of life, adoption, and so on and so forth?
    Ms. WILCHER. I try not to answer a question with no because 
it is complicated. The answer is without a doubt, no. I mean we 
are not going in the right direction, and we should.
    Mr. LEVIN. Mr. Chairman, you know I am both a union 
organizer and a faith leader. Until my sister from Connecticut 
talked about her personal experience I didn't at all think of 
talking about mine. But I was the president of my Synagogue 
until I ran for Congress, and I have been deeply engaged in my 
own faith community and in interfaith work for years.
    And it is just so deeply, deeply troubling when for-profit 
corporations and others try to use the guise of religion to 
violate the basic human rights of women over their own bodies, 
of people to employment. It is a shame, and I am very 
appreciative of your leadership so we can pass this bill and 
correct the situation.
    Thank you so much, and I yield back.
    Mr. SCOTT. Thank you. The gentleman from Texas, Mr. Wright.
    Mr. WRIGHT. Thank you, Mr. Chairman. Thank all of you for 
being here on the panel today.
    We have already discussed to some extent the First 
Amendment. There is a reason that the very first part of the 
First Amendment and the Bill of Rights dealt with religious 
liberty. And as the Republican leader on the committee 
mentioned earlier, it starts with Congress shall make no law 
establishing religion or prohibiting free exercise thereof.
    Reverend Hawkins, would you agree that free exercise of 
religion means more than the act of worship, it means that we 
life the faith, or try to, that we carry the faith into the 
public square, we don't hide it under a basket, and that we use 
our religious faith as a foundation for decisionmaking for the 
choices we make in life. Would you agree with that?
    Mr. HAWKINS. Are you Presbyterian?
    Mr. WRIGHT. No, sir.
    Mr. HAWKINS. You sound very Presbyterian. Yes, exactly, it 
is faith in action that makes a difference. Again, for the 
betterment of others.
    Mr. WRIGHT. Okay. Thank you. And, Mr. Sharp, the 
Constitution guarantees, again, free exercise of religion. If 
the Federal Government is restricting it, how can it be the 
free exercise? Can it be?
    Mr. SHARP. Not at all. And that is why we have the First 
Amendment and RFRA to provide that check against government 
authority.
    Mr. WRIGHT. Exactly. You mentioned earlier about 
disagreement is not discrimination. When you have a number of 
organizations, and particularly charities, that offer services, 
or businesses that offer services, based on their religious 
faith, and realizing that there are so many different religions 
in the United States that exercise freely, they are going to do 
things differently from one another.
    It doesn't bother me that evangelicals would so something 
different than I would like because I don't want evangelicals 
telling Catholic charities what to do, just as an example.
    When there are options available, let's say someone, a 
bakery refuses to do what a customer might want, that is not 
the only bakery. There are other options, so how can they claim 
discrimination when there are other options available?
    Mr. SHARP. I think that is part of the beauty of what laws 
like RFRA did, is they promote diversity so that you are going 
to have a variety of organizations and charities all coming 
together for the same goal but doing so consistent with their 
religious convictions.
    Mr. WRIGHT. Thank you. I would agree with that, and I would 
say that the title Do No Harm is a misnomer in this case 
because to gut RFRA does great harm to this country.
    And I am going to yield back to the Ranking Member.
    Mrs. FOXX. Thank the gentleman from Texas.
    Mr. Sharp, RFRA is a rather simple statute that merely 
codifies a compelling interest test for the government to 
burden a person's religious beliefs substantially. It is very 
conformative with the First Amendment. What would happen to the 
effectiveness of the statute if Congress begins specifying 
areas of the law that will be exempt from RFRA, as Congressman 
Kennedy's bill, the Do No Harm Act, does?
    Mr. SHARP. Thank you for that question. It would have a 
very detrimental impact on religious liberty. Because a lot of 
the individuals and organizations that right now are facing a 
lot of attack over their beliefs would find themselves deprived 
of the opportunity not to win, not to lose, but just to go to 
court and make their case, to have that fair process to explain 
why a law burdens their religion. And on the other side, let 
the government make its case as well.
    We want every single American of every belief, every 
religion, every faith, every background, to have that access to 
that process afforded by RFRA.
    Mrs. FOXX. And again, in order to violate the First 
Amendment, because of RFRA the government has to prove its 
case. And that I think is something that perhaps has not been 
accentuated enough in today's hearing as we have gone off on 
tangents, in my belief, and made this as though we are denying 
healthcare to women.
    That is not what RFRA is about. RFRA is not about denying 
anything to anybody except the freedom of religion. The Do No 
Harm bill will deny that.
    Thank you, Mr. Sharp, I yield back.
    Mr. SCOTT. Thank you. The gentleman from Maryland, Mr. 
Trone.
    Mr. TRONE. Thank you, Mr. Chairman. Ms. Wilcher, OFCCP has 
a long history of enforcing civil rights provisions that 
protect the employees of Federal contractors, including 
Executive Order 11246 which prohibits discrimination based on 
race, color, religion, sex, or national origin.
    President Bush's 2002 religious exemption currently allows 
religiously affiliated entities to discriminate on the basis of 
religion in hiring. But specifically provides those entities 
are required to abide by all other provisions. For example 
protections on the basis of race or sex.
    The Trump Administration proposed expanding this exemption 
but fails to reference the current exemptions' limitations 
regarding enforcement of other protections.
    So based upon the data, the evidence, is there any 
indication that religious organizations are actually seeking 
such exemptions?
    Ms. WILCHER. We looked at the compliance activity and we 
haven't seen any indication of that. You will have to talk to 
Ms. Laster, but we haven't seen it.
    Mr. TRONE. Exactly. During your time at OFCCP did you 
receive reports or complaints from religiously affiliated 
organizations regarding their ability to comply with the 
specific provisions because of their faith? In other words, is 
this directive a solution or a problem, or a solution in search 
of a problem?
    Ms. WILCHER. Well in my experience it is probably a 
solution in search of a problem. I didn't go through any of 
that. The executive order itself already has exemptions for 
religious organizations. I mean and it has worked fine. So, no, 
to me this is a solution in search of a problem.
    Mr. TRONE. Thank you. As someone deeply familiar with 
OFCCP's day to day operations, can you describe what impact 
this broad and vague proposal could have?
    Ms. WILCHER. It could have quite a bit of an impact. First 
of all it is one thing to have a policy in writing, it is 
another to apply it and to interpret it. And unfortunately, 
what I saw in the South Carolina case is that this 
Administration looks to be really looking at it very liberally 
and broadly, which has the impact of limiting civil rights 
enforcement and anti-discrimination laws.
    So us, the staff, as though I still work there. You know, 
the staff really gets conflicted. And if they feel as though 
there is pressure from justice or from any other entity to read 
very liberally in terms of RFRA and the issue of religious 
freedom, they are going to do it and they are going to look the 
other way. Knowing full well they were there to enforce the 
anti-discrimination laws.
    And there is a difference between disagreement and 
discrimination. And that is what these laws are intended to 
protect.
    Mr. TRONE. Absolutely. So even prior to RFRA, institutions 
whose purpose and character were primarily religious, they were 
able to hire based on religious beliefs, but does the Do No 
Harm Act do anything to change this ability to hire on 
religious beliefs?
    Ms. WILCHER. No, not to my view.
    Mr. TRONE. Has the Trump Administration gone too far and 
corrupted the intent of RFRA by allowing more and more 
exceptions and special rules leading this law to be used as a 
weapon of discrimination?
    Ms. WILCHER. My view is, from what I have seen, the answer 
is yes, which is why I am here and this is why we are really 
concerned about what is happening. There is a First Amendment, 
there is also a Thirteenth, Fourteenth, and Fifteenth 
Amendment, and the civil rights laws that were there because of 
slavery and Jim Crow and segregation, because in the name of 
religion those acts were justified. So, yes, I suspect this 
Administration has gone a bit too far.
    Mr. TRONE. And we have also heard some concerns today the 
Do No Harm Act would prevent religious organizations receiving 
Federal funding. Is that an accurate criticism?
    Ms. WILCHER. Can you repeat that, I didn't hear?
    Mr. TRONE. We heard today some concerns the Do No Harm Act 
would prevent some religious organizations from receiving 
Federal funding.
    Ms. WILCHER. No. There is no indication of that at all.
    Mr. TRONE. Exactly. Thank you. I yield back my time.
    Mr. SCOTT. Thank you. The gentleman from Virginia, Mr. 
Cline.
    Mr. CLINE. Thank you, Mr. Chairman. Thank our witnesses for 
being here.
    As everyone has been discussing, the First Amendment 
guarantees Congress shall make no law respecting an 
establishment of religion or prohibiting the free exercise 
thereof. RFRA upholds this right on which our great country was 
founded. The Federal Government has a duty to ensure that this 
right is not violated and that Federal overreach does not 
infringe on the State's ability to uphold this.
    During my time in the Virginia General Assembly we worked 
to bolster these protections for all Virginians and I look 
forward to continuing that effort here in Congress.
    And I think one of the things that was being discussed, an 
important point was made, and Mr. Sharp I will ask you. When 
these individuals are being required by the Federal bureaucracy 
to come to the Federal bureaucracy and ask for some type of 
exemption, there is an imbalance.
    A notable feature of RFRA is that it requires the 
government to explain and justify a restriction on religious 
liberty. The government must show there is a compelling 
interest and the restriction is the least restrictive means of 
achieving the interest.
    So is it your view that RFRA gives individuals some much 
needed leverage when dealing with the bureaucracy, and does it 
increase government transparency and accountability in the 
process?
    Mr. SHARP. Thank you for that question. What it does is it 
is exactly you described. There are religious minorities, 
individuals, organizations, that find themselves having their 
religious freedom violated by the heavy hand of government. 
They may not have the political power to go and seek out an 
exemption.
    So what RFRA does is provide them a process, a way to check 
that government authority, go to court and make their case. To 
explain why this burden on their religious exercise is 
unconstitutional and likewise allows the government to make its 
case as well. Not to pick winners and losers, but to provide 
that check, that accountability you referenced against 
government restrictions on the ability of people of faith to 
live and work consistent with those beliefs.
    Mr. CLINE. Taking that one step further, how does it 
provide protections against rulemaking by these same 
bureaucracies that may intentionally or unintentionally damage 
the free exercise of religion?
    Mr. SHARP. Thank you. And a lot of times we focus on RFRA 
and laws, but it also extends to agency actions and things like 
that. Indeed we talked about the contraceptive mandate, which 
as we discussed, was the process of one of those agency 
actions. So RFRA simply ensures that whether it is coming from 
a law passed by Congress, an action by the agency, whatever the 
source, if the Federal Government is taking an action that 
restricts an individual or organization's free exercise of 
their faith, RFRA provides a check, a process, for them to get 
relief.
    Mr. TRONE. Thank you. With that, Mr. Chairman, I will yield 
my time to the Ranking Member.
    Mrs. FOXX. I thank the gentleman from Virginia for 
yielding.
    Mr. Sharp, in most RFRA cases involving preventive services 
are organizations seeking to exclude a wide range of women's 
health services, or are they targeting specific procedures or 
prescriptions that violate their beliefs?
    Mr. SHARP. It is the latter. We have obviously talked about 
that issue a lot, and I think what gets lost in the Hobby Lobby 
and Conestoga Wood Specialty, who ADF had the pleasure to 
represent, was that they were not seeking an exemption from all 
services, seeking to not cover healthcare, but specifically 
four items that they believed could result in the termination 
of a pregnancy, the loss of an innocent life, consistent with 
their beliefs. So what they sought was that very targeted, give 
us breathing room so that we do not have to pay for or provide 
those four items. Not a broad array of services, but four 
things.
    That is what RFRA helps to do is to provide those narrow, 
targeted solutions.
    Mrs. FOXX. Thank you. Mr. Sharp, RFRA sets up a balance 
between the free exercise of religion and potentially counter 
veiling governmental interests. Obviously we have heard a lot 
about what our colleagues think are counter veiling 
governmental interest. We might have a disagreement on that.
    How would the bill introduced by Congressman Kennedy, the 
Do No Harm Act, affect this balance?
    Mr. SHARP. The important aspect of RFRA, one of its many 
important aspects, is that it applies to any government action 
across the board. What the Do No Harm Act is going to narrow 
that, and we are going to say there is now going to be a lot of 
government actions that you don't have the opportunity to go to 
court and seek relief. Vast opportunities for people of faith 
are now going to be snuffed out because rather than being able 
to go to court and seek relief, those doors are going to be 
shut to them under the Do No Harm Act.
    Mrs. FOXX. Thank you, Mr. Chairman, I yield back.
    Mr. SCOTT. Thank you. Gentlelady from Minnesota, Ms. Omar.
    Ms. OMAR. Thank you, Chairman. Ms. Laser, can you tell me 
the delicate balance between religious liberty and civil 
rights?
    Ms. LASER. You know, religious liberty is about the freedom 
to believe what you want, or not believe, and to be able to 
practice those beliefs without causing harm. When someone 
violates someone else's civil rights, they are often putting 
their own religious beliefs above the religious beliefs of that 
other person.
    What the First Amendment has when it comes to religion are 
two clauses, the Free Exercise Clause and the Establishment 
Clause. And it is important that both exist because there have 
to be limits on free exercise in order ultimately to protect 
religious freedom for everybody. And I don't feel like we have 
emphasized that plain enough.
    So RFRA is about religious freedom, but the Do No Harm Act 
is what is ensuring that RFRA isn't being misused to take away 
the religious freedom of some, like Aimee Maddona, who is being 
refused government-funded services because she's Catholic.
    Ms. OMAR. So let's see, religious liberty would be like, 
almost then a person like myself having the ability to wear my 
head scarf in order to serve my constituents in Congress?
    Ms. LASER. Yes.
    Ms. OMAR. Yes. Religious liberty would be almost then a 
person being allowed to grow their beard because that is 
consistent with their faith?
    Ms. LASER. Yes.
    Ms. OMAR. Would religious liberty be in allowing certain 
people to access service, like buying a cake from a cake shop?
    Ms. LASER. Is that an example of religious freedom?
    Ms. OMAR. Would that be an example of religious liberty?
    Ms. LASER. Well, I mean if you are buying a cake for your 
religious wedding I suppose you could say it is connected to 
your exercise of your religion for some people, sure.
    Ms. OMAR. The person denies you--
    Ms. LASER. If the person is denying you that right, then 
what the government is doing, if the government is sanctioning 
that, right, because that is what is important when it comes to 
RFRA and the Do No Harm Act. We are talking about when the 
government is sanctioning one person being able to impose their 
religion on others.
    In the case of Jack Phillips in Masterpiece Cake Shop, 
there was an anti-discrimination public accommodations law that 
the State had passed. All the people had come together, it was 
a secular shared law. And what Jack Phillips was saying is I 
want special treatment, I want a special exemption from this 
law.
    If the government had given that to him, they are allowing 
him to impose his religious beliefs on others in a way that 
causes harm. And religious freedom is not about causing harm to 
other people.
    Ms. OMAR. Because me exercising my religious freedom that 
is protected under religious liberty in our First Amendment, 
but imposing my faith on to you is not?
    Ms. LASER. That is the point. The two clauses work together 
so the Establishment Clause puts a limit on your free exercise 
of religion because there are a lot of freedoms. You can swing 
your fists everywhere, but you can only swing your fist in our 
society up until the tip of my nose. And then that freedom is 
curtailed.
    Ms. OMAR. So a police officer, a doctor, Members of 
Congress, we all take an oath to do no harm, yes? So if I am a 
police officer and there is a shooting at a gay bar and I say I 
am not entering this place because I have strong religious 
conviction that, you know, I don't believe in saving gay 
people. Like there was a police officer recently on a tape 
talking about how we should harm gay people. Would that be 
covered under his religious liberty, can he do that?
    Ms. LASER. No, he cannot. Because it is very clear from not 
just the framers of the Constitution, but a line of Supreme 
Court cases that religious freedom is not the right to use your 
religion to hurt third parties or to cause harm. That is not 
what we mean by religious freedom.
    Frankly, I had a group of Stanford students who visited me 
and I said what is the first thing that comes to mind when you 
think of religious freedom today? And they all agreed that what 
came to mind was anti-gay.
    Ms. OMAR. And under our Constitution we are prohibited from 
establishing religion, yes?
    Ms. LASER. Absolutely.
    Ms. OMAR. So if you have Members of Congress that are 
legislating laws in accordance with their faith in regards to 
abortion or LGBTQ or women or any of those things, that should 
be prohibited within our Constitution?
    Ms. LASER. You are not allowed to impose, through the 
government, your religious beliefs on others. That is not what 
religious freedom is about, that is not what our country rests 
on.
    Ms. OMAR. For many of us religious freedom is extremely 
important. It is life and death in this country. Many of us 
fled our countries to come to the United States because that is 
the one thing that distinguishes us from many countries.
    But it is also important that we have a secular government 
and protect peoples' civil rights and access to those civil 
rights.
    So I appreciate your testimony, and I yield back.
    Mr. SCOTT. Thank you. The gentleman from Georgia, Mr. 
Allen.
    Mr. ALLEN. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    This is a debate that frankly has been going on for 4,000 
years. It is all played out in God's word, and it continues 
here today. Religious freedom is the cornerstone of the great 
American experiment. Our Founding Fathers protected religious 
liberty as no government has in history. The Religious Freedom 
Restoration Act protects the unalienable rights of religious 
liberty for all Americans, is a God given right.
    RFRA, not the First Amendment, is the primary Federal 
safeguard of Americans' religious liberty.
    In 1990 the Supreme Court greatly weakened the First 
Amendment's protection of religious liberty. Congress worked 
together to enact RFRA. Again, and I must disclose that while 
everything in my life, and I have been by some standards, 
successful, was great 20 years ago, that I found that what was 
next was, you know, I am just another broken, flawed man who 
cannot live without the saving grace of Jesus Christ. And that 
has offended some people in this room.
    Now I made that choice and I found out very quickly that 
when I make that statement it is offensive, and that I cannot 
impose that on anyone here or in listening to my voice today. 
In fact, you know, when I first made that decision, you know, 
some folks called me the most dangerous person in the world. 
Because I wanted to shout it to the world. Because I knew the 
truth.
    So why is it that, you know, that we are talking today 
about this subject? Well, you know what I found out in my walk 
is that, you know, I couldn't change anybody else, much less 
myself. And meaning that, you know, again, I can't impose my 
values on anyone here or within who is listening today, and all 
I can tell you is what I believe in.
    Now that is why I think our founders created the First 
Amendment, and I think that is why we are here debating today, 
and we will be debating this for, you know, until eternity. So 
I do know that Christ said there would be many false prophets. 
This battle has been laid out for us in the scriptures. There 
are over 55 versus in the scriptures that reference government. 
You can Google what the Bible says about government and it will 
give you those scriptures.
    I learned that in my study of the scriptures, which has 
been intense in the last 20 years, that, you know, one of the 
reasons that I am so passionate about this is it hasn't worked 
out too well for those folks who haven't followed God's laws 
and have been disobedient to his word.
    So where are we headed in all of this? You know, the 
question asked by Pilate, what is the truth? Pilate was in 
charge of Israel at that time. What is the truth here? And we 
will be debating this from now on.
    You know I have been heavily criticized in this body for 
telling people what I believe. Which I think is in direct 
conflict with the First Amendment. And I have been criticized 
in my district. So why do I do it? Because I do it because I 
believe the church has been silenced by this government and 
people overall in this country have been silenced by this 
government and those in this government because we are in a 
battle of good versus evil. And we have been for 4,000 years.
    Mr. Sharp, can you give me any examples of where the 
government has run roughshod over the church in this country, 
which is now unable, in fact the church doesn't even know the 
truth and is afraid to tell the truth in the pulpits of America 
today. Can you give me some examples of that?
    Mr. SHARP. There are numerous ones. In fact, one I would 
like to bring up what was discussed earlier, Jack Phillips, our 
Colorado baker.
    The church goes far beyond the four walls, including into 
his business and how he operates it. What he sought was not a 
special exemption, what he sought was equal treatment, the same 
freedom that every other creative professional, every other 
baker in the State of Colorado had, to decline to create 
expression that violates his religious conviction.
    And so there are many other examples that ADF has 
represented of individuals, organizations, and churches. And we 
fully support the freedom of all of them to live out their 
faith.
    Mr. ALLEN. Mr. Chairman, I am out of time, and I yield 
back.
    Mr. SCOTT. The gentlelady from Georgia, Mrs. McBath.
    Mrs. MCBATH. Thank you, Mr. Chairman. And thank you for all 
of you that are here today. We really appreciate your testimony 
and your time.
    I am a devoted Christian and I live very hard to walk out 
my faith every single day. Not that I do it perfectly, but I 
really try to abide by the precepts of my faith. My faith 
teaches me to love all people and to treat everyone equally.
    Never have I interpreted my religion as something used to 
discriminate against those who differ from me or my opinions. 
As my colleagues before me have pointed out, the Religious 
Freedom Restoration Act was not intended to be used as a means 
for discrimination to keep people from living the lives that 
they want, that they choose, as we have been witnessing 
recently.
    Whether that means having access to contraceptives, 
practicing their respective religion while at work, or taking 
in a child in need of a loving home. We should not be imparting 
our own life choices on everyone else.
    Ms. Laser, my question is for you, I would like to review 
the history of RFRA. Can you please explain for the committee 
why RFRA was passed and signed into law in 1993?
    Ms. LASER. Sure. So RFRA was passed and signed into law in 
large part in reaction to the Employment Division v. Smith 
case. And in that case the court changed the standard, the free 
exercise standard around whether a generally applicable and 
neutral law could have a religious exemption if it burdened 
someone's religious practices. In that case it was Native 
Americans in a peyote smoking ceremony and being denied 
unemployment benefits because of that.
    And a lot of folks were concerned on all sides of, you 
know, the aisle. And came together, legal experts, civil 
liberties groups, religious groups, all sat at one big table 
and decided that we better make sure that we have religious 
freedom protections, in particular for religious minorities.
    So the kind of things that came up during the debate were 
what about a Jewish school boy who wants to wear his yarmulke 
to school. Or what about a Muslim firefighter who wants to grow 
a beard. And so those were the types of things that folks 
worried about.
    What folks weren't talking about and weren't worrying about 
was people being able to use religion to cause harm to other 
people and to discriminate against other people. People being 
able to impose their religion on other people. You can see 
those examples are very different from the types of examples 
that they were talking about.
    And that is why RFRA was able to pass with such a broad 
consensus. Unfortunately though, that is not how it has played 
out, and that is not what we are seeing coming in spades from 
this Administration. And so the Do No Harm Act would restore 
RFRA to that original intent, leave the balancing test in 
place, but make sure that it couldn't be misused for something 
that it wasn't originally intended to do and that doesn't 
violate the Establishment Clause of our First Amendment. So it 
lays out some specific areas of the law where religious freedom 
doesn't get to trump protections that the society has given to 
different groups of vulnerable people. And child labor laws, 
workplace protection laws, civil rights protections, 
healthcare, government services, and government employees like 
Kim Davis, you know, being able to discriminate in the doling 
out of government services.
    That is why it is such an important and critical fix.
    Mrs. MCBATH. Thank you. Sir, if I may, one more question. 
Was there any indication at the time of RFRA's passage that 
RFRA would allow religion to undermine the rights of others?
    Ms. LASER. No. And in fact, the coalition would have 
disintegrated if that would have been the case. It wouldn't 
have passed.
    Mrs. MCBATH. Thank you very much.
    Ms. LASER. Thanks.
    Mr. SCOTT. Thank you. The gentleman from South Carolina, 
Mr. Timmons.
    Mr. TIMMONS. Thank you, Mr. Chairman. And I would like to 
thank all the witnesses for taking the time to come before the 
committee to testify.
    We keep talking a lot about discrimination. But I want to 
switch gears to talk about children. Children that for whatever 
reason are in need of foster care. Over the past few decades 
Miracle Hill has provided foster care for thousands of 
children. And while there are hundreds of other similar 
organizations all over the country, Miracle Hill is 
particularly important to me because they serve people in my 
congressional district.
    The legal issue being discussed here is that Miracle Hill 
requires couples seeking to foster children through Miracle 
Hill, they have to share the theological convictions of Miracle 
Hill. Miracle Hill's reasoning is that if a couple wants to be 
in a position of spiritual leadership to the children they care 
for, those positions are reserved for people that can affirm 
Miracle Hill's statement of Faith.
    I want to be clear. Miracle Hill will serve any child, no 
matter the child's race, faith, sexual orientation, gender 
identity, nationality, or any other differentiating factor. And 
this is important. I also want to be clear, Miracle Hill has 
never prevented, I will say it again, has never prevented any 
individual from becoming a foster parent. That is because there 
are other private providers less than two miles away from their 
location that would happily process any foster care 
application.
    Alternatively, someone seeking to foster children can go 
the Department of Social Services which is another mile or two 
down the road. So I say again, no one has ever been denied the 
right to be a foster parent by Miracle Hill.
    As circumstances may have it, Ms. Laser referenced a close 
friend of mine, Beth Lesser, who happens to be Jewish. And 
while Miracle Hill would not facilitate her fostering a child, 
she was able to foster a child with another nearby provider. So 
again, as I say, no one is being denied the right to foster a 
child.
    Furthermore, Miracle Hill has never denied any individual, 
no matter their faith, gender identity, or sexual orientation, 
the right to volunteer at Miracle Hill. Anyone is welcome to 
volunteer in the soup kitchen, they can hand out coats and 
blankets in one of the many homeless shelters they operate, 
they can teach adults how to read, they can help with any of 
another variety of the important ministries that they have.
    But again, longstanding policy, the policy since they were 
founded decades ago, if a parent seeking to foster a child 
wants to be in a position of spiritual leadership and 
influence, those positions are reserved for people that can 
affirm Miracle Hill's Statement of Faith.
    I am going to speak really quickly. So we have the Catholic 
Dioses of Charleston, I am going to paraphrase. They fully 
support Miracle Hill's ability to continue operating. The 
President of the Coalition of Jewish Values, Rabbi Lerner, also 
in South Carolina, went even a step further, and I am going to 
read his because it is important.
    ``Contrary to what has been said, no one is denied the 
ability to provide foster services because Miracle Hill 
Ministries is among the agencies licensed to operate.'' Again, 
this is the President of the Coalition of Jewish Values, Rabbi 
Lerner. He said any individual or family can turn to numerous 
other providers, including the State itself, so the loss of 
Miracle Hill's license would only result in fewer children 
served and a lack of religious support for families who share 
Miracle Hill's beliefs. No one would gain, and many would lose, 
most of all the hundreds of children currently served through 
Miracle Hill. That is Rabbi Lerner, the President of the 
Coalition of Jewish Values in South Carolina.
    So the Jewish community and the Catholic community of South 
Carolina fully support Miracle Hill.
    My question is for Ms. Laser. In your opinion is there any 
space for religious organizations that adhere to traditional 
religious beliefs, to play a role in providing foster care 
services to vulnerable children, or even in the public square 
at all, or should they just go to church, ignore the problems 
in their communities, and let the government handle it?
    Ms. LASER. Thanks for that question. They can absolutely 
play a role and they shouldn't be excluded from being able to 
provide government services and act as the ward of the State as 
foster care homes do for children. But when they take that on 
they have to have the best interest of the child as first and 
foremost. That is a duty and an obligation. And that is not 
what is happening because with most foster care situations it 
is not a lack of foster care agencies that is the problem, it 
is a lack of foster parents. And there is stories from all over 
the country where foster kids are even sleeping on the floors 
of offices because they can't find foster homes, which is a 
very serious problem.
    They can be eligible to receive government money, but when 
they receive that money they have to play by the same rules as 
everybody else, which means they can't discriminate, because 
there are provisions in place that prevent that.
    Mr. TIMMONS. Those provisions were added by the previous 
Administration 9 days before he left office, so I think maybe 
that is where we should be looking as far as the legal 
justification of it.
    I think it is safe to say that if Miracle Hill was no 
longer licensed there would be less children placed in foster 
homes. So with that I will yield back the remainder of my time. 
And Thank you.
    Mr. SCOTT. Gentlelady from North Carolina.
    Mrs. FOXX. Thank you, Mr. Chairman. Mr. Sharp, in the Hobby 
Lobby decision the Supreme Court found RFRA applied to closely 
held for-profit corporations. Finding that both non-profit and 
for-profit corporations can advance religious freedom. Which 
also furthers individual religious freedom.
    Do you agree it is appropriate for RFRA to apply to non-
profit and closely held for-profit corporations?
    Mr. SHARP. Yes, I do. And thank you for that question and 
that reminder that as Justice Alito said in the Hobby Lobby 
decision, businesses are not run in a vacuum, they are run by 
people, people of faith, people with deep religious 
convictions. In the case of Hobby Lobby, as they put on their 
website, it is people that their business is not about profit, 
it is about honoring God, honoring that commitment to God 
through the work that they do.
    And so when these closely held businesses and organizations 
are involved what RFRA does is ensures that the beliefs of 
those owners that are reflected in how they operate their 
business and how they live their lives and interact with their 
community, that the those beliefs are given a fair hearing in 
court and an opportunity to seek relief from things like the 
contraceptive mandate, and other restrictions on their 
religious practice.
    Mrs. FOXX. Thank you. Mr. Chairman, in the interest of time 
I will yield back and save my final comments for that time. 
Thank you, Mr. Chairman.
    Mr. SCOTT. Thank you. One of the problems we have now is 
that the definition of victim has been changed around. We are 
primarily focused on generally applicable anti-discrimination 
laws and executive orders that directed there should be no 
discrimination with Federal money. Traditionally the victims 
have been defined as those who are trying to get services or 
trying to get a job without facing discrimination. And now we 
are apparently trying to protect those who may be prevented 
from discriminating or imposing their belief on others. We have 
even heard a suggestion that discrimination would be okay so 
long as the victim has some other alternative, they can do to 
another family placement. If you are denied in one restaurant, 
well you just go across the street and eat somewhere else. That 
is not the tradition of victim in these cases.
    In healthcare we have talked about forcing a doctor against 
his will to provide certain services. What we didn't talk about 
is a child's right to a vaccination, that the doctor didn't 
believe in vaccinations or other medical decisions. Those 
really ought to be up to the medical board, not to a bunch of 
politicians.
    But the case in South Carolina gives us an opportunity, 
first one we have had in a long time, to actually discuss the 
situation of discrimination, because most of them try to say 
well, we don't do that. Now they have said they are going to 
discriminate in the way they provide services and in hiring. 
And, Mr. Sharp, shouldn't all citizens, if it is a government 
funded contract, be eligible for jobs and services under the 
government contract without facing invidious discrimination?
    Mr. SHARP. I think we can agree everyone should be treated 
with dignity and respect in those situations. And I think it 
includes not only the recipients, but also the providers to 
make sure that all of their interest and concerns are properly 
balanced.
    Mr. SCOTT. Does that mean that you ought to be able to get 
a job at a government-funded agency without facing 
discrimination?
    Mr. SHARP. And again, I go back to--
    Mr. SCOTT. Wait, wait, wait. They said they are going to 
discriminate, so apparently, do you agree with that or not?
    Mr. SHARP. And I apologize. Are we specifically referring 
to Miracle Hill?
    Mr. SCOTT. Or any other agency that is taking a faith-based 
exemption and wanting to hire and discriminate, directly 
discriminate based on religion. You are the wrong religion, you 
don't get a job here. That is what Allen Yorker was told. I 
mean that is what is going on. And we have an example here. 
Live example that people are ducking and dodging. That is what 
is going on.
    Mr. SHARP. And again, not to duck and dodge, but for 
Miracle Hill it is a religious organization, it is important 
that they be allowed to hire individuals that share that 
religious--
    Mr. SCOTT. With Federal money? They can do that with their 
own money. How about Federal money?
    Mr. SHARP. I don't think we ought to condition Federal 
dollars on the ability of a religious organization to hire 
people that share their faith to accomplish their religion--
    Mr. SCOTT. This isn't limited, as you suggested, to just 
religious organizations. It is anybody with strongly held 
beliefs. But a bunch of white Nationalists got a Federal 
contract, could they be able to discriminate against African 
Americans?
    Mr. SHARP. Again, I said this earlier, RFRA has never 
successfully been used to support racial discrimination. 
Because the government has a compelling interest, as the 
Supreme Court has recognized, to eradicate racism.
    Mr. SCOTT. That is a strongly held belief. Ms. Wilcher, let 
me ask you a question on Do No Harm. How would that effect the 
administration of Executive Order 11246?
    Ms. WILCHER. Well as I see it, it would hold harmless these 
anti-discrimination provisions that exist. It would not 
therefore allow them to be exempted or overturned, which is 
what is important.
    Mr. SCOTT. And could you administer the anti-discrimination 
provisions of the Executive Order with the Do No Harm Act?
    Ms. WILCHER. Yes.
    Mr. SCOTT. And what are the problems if we don't have the 
Do No Harm Act, what are the problems in enforcing the anti-
discrimination provisions of that law?
    Ms. WILCHER. Again, depending on how RFRA is being 
interpreted and applied, it could provide so many more 
exemptions than currently exist. And particularly as it relates 
to the LGBTQ community. And we are very concerned about that.
    Mr. SCOTT. Thank you. And I yield for closing to the 
Ranking Member.
    Mrs. FOXX. Thank you, Mr. Chairman. I must be honest, 
today's proceedings have disheartened me. It is one thing as 
politicians for us to debate and disagree on issue areas and 
ideas for how best to move the country forward. In fact, that 
is the beauty of this Nation's political progress, thanks to 
our freedom of speech and expression.
    But it is a whole different ballgame when the issue being 
debated is the First Amendment of the United States 
Constitution itself. One of our colleagues said today, we take 
an oath to do no harm. No, we don't take an oath to do no harm. 
We take an oath to uphold the Constitution. Maybe she took a 
different oath.
    We are discussing a bill today with a title dripping with 
irony. Do No Harm is a preposterous name for a bill that not 
only directly violates the First Amendment and Americans' 
freedom of religion, but also blatantly picks winners and 
losers among Americans of faith.
    The Do No Harm Act undermines a law that has served to 
protect Americans from religious discrimination for 25 years. 
RFRA is not about protecting certain religious groups over 
others. RFRA applies to all religious faiths, including 
minority religions. It is a balancing test to ensure a fair day 
in court.
    We are entering treacherous waters by considering 
legislation that stifles proven bipartisan solutions, and more 
seriously, our Bill of Rights. It is outrageous that Democrats 
are advertising this legislation as guaranteeing fundamental 
civil and legal rights when it dramatically attacks those same 
rights for people with religious convictions.
    We have a responsibility as lawmakers to defend and protect 
the United States Constitution and the American people above 
all else.
    The bill discussed here today is not only outside the 
bounds of responsible legislating and mainstream views about 
religious freedom, it is also outside the jurisdiction of this 
committee. Our time today would have been better spent 
discussing legislation on which our committee could actually 
vote. If any good was accomplished here it is that citizens of 
faith have been alerted. Those who cherish religious freedom 
have noted that elections have consequences and those 
consequences are being manifested in today's hearing.
    This hearing was intended to review the ``Misapplication of 
the Religious Freedom Act.'' In reality, it misapplies our role 
as legislators tasked with protecting the Constitution by 
stripping citizens of their fundamental rights.
    Nevertheless, Mr. Chairman, committee Republicans will 
continue to stand up for religious freedom and oppose policies 
that disrespect and diminish the faith of any American.
    I yield back.
    Mr. SCOTT. Thank you.
    Mrs. FOXX. I am sorry, Mr. Chairman, I ask unanimous 
consent to place in the record a letter from the U.S. 
Conference of Catholic Bishops Committee for Religious Liberty 
in support of the Religious Freedom Restoration Act and in 
opposition to H.R. 1450.
    Mr. SCOTT. Without objection. Before I conclude I would 
like to make a few clarifying remarks.
    The Do No Harm Act does not create a new affirmative 
requirement to provide or cover abortion, birth control, or any 
other type of healthcare. And Congress does pass laws that 
protect reproductive healthcare access. Do No Harm would ensure 
that RFRA cannot be used against those patients.
    Because of several laws limiting coverage and provision of 
abortion care, the 2016 Rule implementing Section 1557 of the 
Act does not include requirements regarding coverage or 
provision of abortion care itself, however the rule did make 
clear that a woman cannot be discriminated against because she 
had an abortion. And notably the Trump Administration just 
proposed carving out this protection, just as another attack on 
Constitutional rights.
    I notice the time is just about out, but I would want to 
remind everyone that the victim in this case is the person 
trying to get a job or trying to get services without facing 
discrimination.
    We are talking about federally funded contracts, not what 
churches can do on their own. They can discriminate in hiring 
with their own money, they can do things like that. But if it 
is a Federal contract they ought to play by the same rules that 
everybody else is. You take the Federal money, you can't 
discriminate in employment, you can't discriminate in who you 
serve based on protected classes like religion. The services 
provided on those agencies are under the jurisdiction of this 
committee, particularly family placement services and others.
    And so I think the hearing does indicate how these services 
will be provided in agencies under our jurisdiction.
    But it is a simple question. Under a government-funded 
contract can you tell somebody that you are not entitled to a 
job in this federally funded program because of your religion? 
Yes or no?
    I don't think you ought to be able to discriminate like 
that, others think that there is some value in that. We have 
been fighting that battle for a long time. I thought we had won 
it in 1964, 1965, but apparently we have to re-fight that 
battle all over again.
    With that, if there is no further business to come before 
the committee other than unanimous consent requests to 
introduce into the record a number of letters and documents and 
reports, I ask unanimous consent, without objection. So 
ordered.
    And the committee is now adjourned.
    [Additional submission by Ms. Adams follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    [Additional submission by Ms. Bonamici follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    [Additional submission by Mrs. Foxx follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    [Additional submission by Ms. Laser follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Additional submissions by Chairman Scott follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
   
    
  
    
    [Additional submission by Mr. Takano follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    [Additional submission by Ms. Wild follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Questions submitted for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 1:51 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
